<html>
<title> - FISCAL YEAR 2020 EPA BUDGET</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                      FISCAL YEAR 2020 EPA BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON ENVIRONMENT AND CLIMATE CHANGE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 9, 2019

                               __________

                           Serial No. 116-22
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                        
                        
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 39-659 PDF            WASHINGTON : 2021
                        
                        
                        
                        

                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
             Subcommittee on Environment and Climate Change

                          PAUL TONKO, New York
                                 Chairman
YVETTE D. CLARKE, New York           JOHN SHIMKUS, Illinois
SCOTT H. PETERS, California            Ranking Member
NANETTE DIAZ BARRAGAN, California    CATHY McMORRIS RODGERS, Washington
A. DONALD McEACHIN, Virginia         DAVID B. McKINLEY, West Virginia
LISA BLUNT ROCHESTER, Delaware       BILL JOHNSON, Ohio
DARREN SOTO, Florida                 BILLY LONG, Missouri
DIANA DeGETTE, Colorado              BILL FLORES, Texas
JAN SCHAKOWSKY, Illinois             MARKWAYNE MULLIN, Oklahoma
DORIS O. MATSUI, California          EARL L. ``BUDDY'' CARTER, Georgia
JERRY McNERNEY, California           JEFF DUNCAN, South Carolina
RAUL RUIZ, California, Vice Chair    GREG WALDEN, Oregon (ex officio)
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
    
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     1
    Prepared statement...........................................     3
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     4
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     8
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................    62

                               Witnesses

Andrew R. Wheeler, Administrator, U.S. Environmental Protection 
  Agency.........................................................     9
    Prepared statement...........................................    12
    Answers to submitted questions...............................    88

                           Submitted Material

Fact sheet of March 4, 2019, COGA: ``Air Quality Advancements,'' 
  submitted by Mr. Tonko.........................................    64
Letter of March 12, 2019, from Deepthi K. Weerasinghe, The 
  Gainesville Sun, submitted by Mr. Tonko........................    66
Report of January 2019, by GAO, ``Superfund: EPA Should Improve 
    the Reliability of Data on National Priorities List Sites 
    Affecting India Tribes,'' to Mr. Ruiz, submitted by Mr. Tonko 
    \1\
Article on ``Climate Change is a Health Emergency: A Declaration 
  on Climate Change and Health,'' by Alliance of Nurses for 
  Healthy Environments, et al., submitted by Mr. Tonko...........    67
Report of August 22, 2018, ``EPA Needs to Finish Prioritization 
  and Resource Allocation Methodologies for Abandoned Uranium 
  Mine Sites on or Near Navajo Lands,'' to Mr. O'Halleran, 
  submitted by Mr. Tonko.........................................    69
Map of August 22, 2018, ``Cleaning up and revitalizing land: EPA 
  Need to Finish Prioritization and Resource Allocation 
  Methodologies for Abandoned Uranium Mine Sites on or Near 
  Navajo Lands,'' by Christina Lovingood and et al, submitted by 
  Mr. Tonko......................................................    86

----------
\1\ The information has been retained in committee files and also 
  is available at https://docs.house.gov/meetings/IF/IF18/
  20190409/109317/HHRG-116-IF18-20190409-SD007.pdf


                      FISCAL YEAR 2020 EPA BUDGET

                              ----------                              


                         TUESDAY, APRIL 9, 2019

                  House of Representatives,
    Subcommittee on Environment and Climate Change,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
the John D. Dingell Room 2123 Rayburn House Office Building, 
Hon. Paul Tonko (chairman of the subcommittee) presiding.
    Members present: Representatives Tonko, Clarke, Peters, 
Barragan, Blunt Rochester, Soto, DeGette, Matsui, McNerney, 
Ruiz, Dingell, Pallone (ex officio), Shimkus (subcommittee 
ranking member), Rodgers, McKinley, Johnson, Long, Flores, 
Carter, Duncan, and Walden (ex officio).
    Also present: Representatives Sarbanes, Loebsack, and 
O'Halleran.
    Staff present: Jacqueline Cohen, Chief Environment Counsel; 
Adam Fischer, Policy Analyst; Caitlin Haberman, Professional 
Staff Member; Rick Kessler, Senior Advisor and Staff Directory, 
Energy and Environment; Brendan Larkin, Policy Coordinator; 
Dustin J. Maghamfar, Air and Climate Counsel; Teresa Williams, 
Energy Fellow; Mike Bloomquist, Minority Staff Director; Adam 
Buckalew, Minority Director of Coalitions and Deputy Chief 
Counsel, Health; Jerry Couri, Minority Deputy Chief Counsel, 
Environment & Climate Change; Margaret Tucker Fogarty, Minority 
Staff Assistant; Ryan Long, Minority Deputy Staff Director; 
Mary Martin, Minority Chief Counsel, Energy & Environment & 
Climate Change; Brandon Mooney, Minority Deputy Chief Counsel, 
Energy; James Paluskiewicz, Minority Chief Counsel, Health; and 
Peter Spencer, Minority Senior Professional Staff Member, 
Environment & Climate Change.
    Mr. Tonko. The Subcommittee on Environment and Climate 
Change will now come to order. The Chair now recognizes himself 
for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    This morning we welcome EPA Administrator Wheeler to the 
subcommittee to discuss the President's proposed fiscal year 
2020 budget for the Agency. Mr. Wheeler, thank you for being 
here.
    When your predecessor last testified, we were tough but, in 
my opinion, fair given his record. While I am relieved that you 
have not continued his pattern of indiscretions and ethical 
violations, I do have serious concerns about the course this 
Agency, the EPA, has plotted under your leadership, and I 
believe my colleagues on this side of the dais will have 
questions and disagreements on policies your Agency has been 
putting forth.
    The President as we all know has proposed a 31 percent cut 
to EPA's budget from last year's levels. The House will 
certainly reject this budget which would undermine the Agency's 
ability to fulfill its basic mission that being of protecting 
Americans' health and our environment.
    I am also concerned and confused that the President's 
proposal includes significant reductions to programs that the 
administration publicly claims are top priorities. For example, 
Administrator Wheeler has called unsafe drinking water the 
greatest environmental threat, but the budget fails to reflect 
that sentiment. Bipartisan legislation that originated in this 
committee last year reauthorized funding for the Drinking Water 
State Revolving Fund at some $1.3 billion in fiscal year 2020, 
but President Trump's request is far less than even last year's 
level.
    The committee has recognized the need to protect our 
drinking water. With that in mind, I hope to receive updates on 
the lead service line replacement grant program, the Lead and 
Copper Rule revision rulemaking which was expected in February, 
and the regulatory determination for PFAS which your Agency has 
said will happen this year. EPA is not acting urgently or 
comprehensively enough to address serious risks to Americans 
that go beyond our drinking water. Administrative actions have 
moved through the Agency that will undermine protections for 
clean air and chemical safety, but perhaps the clearest example 
is the Agency's climate change agenda. The administration has 
sought to undo modest and achievable climate protections 
including gutting the Clean Power Plan and vehicle emission 
standards. The Administrator's recent remark that climate is 
not a very urgent threat is not supported by science and 
ignores the countless families losing their homes, to 
hurricanes, to flooding, and to wildfires.
    We are spending billions of dollars each year responding to 
natural disasters, and we know that climate pollution emitted 
today will stay in the atmosphere for decades. There is no 
excuse for sitting on our hands. We need to be doing much more 
to rein in emissions, and right now there are meaningful and 
noncontroversial steps EPA could take on this front.
    One easy example is to strengthen the popular, consumer-
friendly Energy Star program. It is my understanding that Mr. 
Wheeler has not been directly involved with this program, but I 
have been informed that actual spending on the program is 
significantly less than what Congress has directed in recent 
years. That is not how this is supposed to work. This program 
is critically important to America's consumers and 
manufacturers, so I hope this concern will be raised with the 
appropriate people at EPA. Congress does expect our spending 
directions to be followed.
    In addition to advancing the mission of the Agency to 
safeguard public health, I also believe the Administrator has a 
responsibility to protect the health of the institution and yet 
we continue to see employees leave including engineers and 
scientists with decades of experience and knowledge. These 
dedicated public servants are being replaced at much lower 
rates.
    We are seeing a lax approach to enforcement of existing 
laws. Enforcement actions against polluters have reached a 25-
year low under this administration. The Agency has stressed 
allowing polluters to self-report violations all while 
conducting fewer inspections to catch them if they are breaking 
the law. That is not just taking the cop off the beat, it is 
asking the lawbreakers to come down to the station at their own 
convenience.
    We are also seeing a systematic devaluing of science by the 
Agency's leadership. Robust science was included as a major 
goal in the budget, but science funding was recommended for a 
45 percent proposed cut. When EPA ignores science in its 
decision-making, we are essentially ensuring the Americans will 
be put in unnecessary danger. Americans will get sicker and 
they will die sooner. It is critical that public health rules 
be grounded in robust science, but instead we are witnessing 
the continued dismissal, politicalization, and suppression of 
science at the Agency.
    Finally, more must be done to improve transparency. When we 
ask for documents, or urge EPA to be more transparent, or 
responsive, we are not trying to set up a ``gotcha''. We do it 
because it is our job to conduct oversight of the Agency on 
behalf of the American people; the people we are all charged 
with serving and the people this Agency is charged with 
protecting. I hope this morning that Administrator Wheeler, you 
will renew your commitment to deliver thorough and timely 
responses to our requests.
    Mr. Wheeler, again thank you for joining us. I look forward 
to your testimony.
    [The prepared statement of Mr. Tonko follows:]

                 Prepared statement of Hon. Paul Tonko

    This morning we welcome EPA Administrator Wheeler to the 
Environment and Climate Change Subcommittee to discuss the 
President's proposed Fiscal Year 2020 budget for the agency. 
Mr. Wheeler, thank you for being here.
    When your predecessor last testified, we were tough but, in 
my opinion, fair given his record.
    While I am relieved that you have not continued his pattern 
of indiscretions and ethical violations, I do have serious 
concerns about the course this agency has plotted under your 
leadership. And I believe my colleagues on this side of the 
dais will have questions and disagreements on policies your 
agency has been putting forth.
    The President has proposed a 31% cut to EPA's budget from 
last year's levels.
    The House will certainly reject this budget, which would 
undermine the agency's ability to fulfill its basic mission of 
protecting Americans' health and our environment.
    I am also concerned and confused that the President's 
proposal includes significant reductions to programs that the 
Administration publicly claims are top priorities.
    For example, Administrator Wheeler has called unsafe 
drinking water the greatest environmental threat, but the 
budget fails to reflect that sentiment.
    Bipartisan legislation that originated in this Committee 
last year reauthorized funding for the Drinking Water State 
Revolving Fund at $1.3 billion in FY20. But President Trump's 
request is far less than even last year's level.
    The committee has recognized the need to protect our 
drinking water. With that in mind, I hope to receive updates on 
the lead service line replacement grant program, a Lead and 
Copper Rule revision rulemaking, which was expected in 
February, and the regulatory determination for PFAS, which your 
agency has said will happen this year.
    EPA is not acting urgently or comprehensively enough to 
address serious risks to Americans that go beyond our drinking 
water. Administrative actions have moved through the agency 
that will directly undermine protections for clean air and 
chemical safety. But perhaps the clearest example is the 
agency's climate change agenda.
    The Administration has sought to undo modest and achievable 
climate protections including gutting the Clean Power Plan and 
vehicle emission standards. The Administrator's recent remark 
that climate is not a very urgent threat is not supported by 
science, and ignores the countless families losing their homes 
to hurricanes, flooding and wildfires. We are spending billions 
of dollars each year responding to natural disasters, and we 
know that climate pollution emitted today will stay in the 
atmosphere for decades.
    There is no excuse for sitting on our hands. We need to be 
doing much more to reign in emissions, and right now.
    There are many meaningful and noncontroversial steps EPA 
could take on this front. One easy example is to strengthen the 
popular, consumer-friendly Energy Star program.
    It is my understanding that Mr. Wheeler has not been 
directly involved with this program, but I am informed that 
actual spending on the program is significantly less than what 
Congress has directed in recent years. That's not how this is 
supposed to work.
    This program is critically important to American consumers 
and manufacturers, so I hope this concern will be raised with 
the appropriate people at EPA. Congress does expect our 
spending directions to be followed.
    In addition to advancing the mission of the agency to 
safeguard public health, I also believe the Administrator has a 
responsibility to protect the health of the institution.
    And yet we continue to see employees leave-including 
engineers and scientists with decades of experience and 
knowledge. These dedicated public servants are being replaced 
at much lower rates.
    We are seeing a lax approach to enforcement of existing 
laws. Enforcement actions against polluters have reached a 25-
year low under this Administration. The agency has stressed 
allowing polluters to self-report violations, all while 
conducting fewer inspections to catch them if they are breaking 
the law. That's not just taking the cop off the beat, it's 
asking the lawbreakers to come down to the station at their own 
convenience.
    We are also seeing a systematic devaluing of science by the 
agency's leadership.``Robust science'' was included as a major 
goal in the budget, but science funding was recommended for a 
45% proposed cut.
    When EPA ignores science in its decision-making, we are 
essentially ensuring that Americans will be put in unnecessary 
danger. Americans will get sicker, and they will die sooner. It 
is critical that public health rules be grounded in robust 
science. But instead, we are witnessing the continued 
dismissal, politicization, and suppression of science at the 
agency.
    Finally, more must be done to improve transparency. When we 
ask for documents, or urge EPA to be more transparent, or 
responsive, we are not trying to set up a "gotcha." We do it 
because it is our job to conduct oversight of the agency on 
behalf of the American people, ``the people'' we are all 
charged with serving, and the people this agency is charged 
with protecting.
    I hope this morning that Administrator Wheeler will renew 
and honor his commitment to deliver thorough and timely 
responses to our requests. Mr. Wheeler, thank you again for 
joining us. I look forward to your testimony.

    Mr. Tonko. With that I now recognize Mr. Shimkus, our 
Republican leader for the Subcommittee on Environment and 
Climate Change, for 5 minutes for his opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. I want to join you in 
welcoming Administrator Wheeler before our committee today to 
discuss the President's proposed budget for fiscal year 2020 
for the Environmental Protection Agency. We appreciate you 
being here today, Administrator, and I look forward to our 
discussions.
    This also just going off script here, it is good to see 
behind you Ryan Jackson. For those on the committee who were 
around during the TSCA legislation, Ryan was our point of 
contact with Senator Inhofe. I will be asking questions on 
that, so maybe, Administrator, you want to talk to Ryan, find 
out what our intent was and what we were trying to do. But Ryan 
it is great to see you again, so thanks.
    Mr. Chairman, this Congress is not the first time that I 
have been the lead Republican on this subcommittee or some 
version of it. Some of you may know this, but I was also lead 
Republican on this subcommittee in the 110th Congress. That 
Congress followed 12 years of Republican control of the House 
and a new Democrat majority was eager to bring the Republican-
run EPA to criticize their budget proposal because it wasn't as 
robust as the majority felt as necessary.
    I left that hearing that day with a couple of thoughts in 
mind. First, the Constitution gives Congress the sole authority 
to raise and spend revenue, so when Congress examines 
administration budget requests as we are today, we cannot 
divorce ourselves and our decisions from that discussion. 
Speaker Pelosi often says, ``show me your budget, and I will 
show you our values,'' and I think that is true. I am glad we 
have a budget proposal from the EPA to warrant today's hearing, 
as I understand it is unlikely that the House will have an 
opportunity to vote on a budget proposal of our own this year.
    My second thought from the 2010 hearing is that we need to 
know that we are getting a good return on our investment in 
environmental protection for the billions we are giving the 
Environmental Protection Agency to spend. There are lots of 
worthy ideas and programs that the EPA could address, but does 
it make the most sense to have the EPA be the one to do 
everything all the time? We should not advocate for more 
funding if all of it is buying us bureaucracy regulatory 
confusion with other agencies or woke-sounding programs that 
don't really improve public health and the environment.
    Finally, and to tie both points together, the money is not 
the end-all/be-all when it comes to an agency's success. More 
money does not necessarily make a person care about their 
environment. There are other considerations including: fidelity 
to the laws Americans ask us to pass, stewardship of the Agency 
to ensure it is doing the best it can with what it has, 
concrete metrics that can demonstrate progress is being made, 
and responsiveness to the environmental and public health 
concerns of the American people.
    Before I yield back my time, Mr. Chairman, I do want to 
thank Administrator Wheeler for some of his recent comments 
regarding safe drinking water. As our colleagues on this 
subcommittee know, improvements to and reauthorization of the 
Safe Drinking Water Act was a bipartisan priority and a success 
of the last Congress. I applaud you, Administrator, for 
recognizing that access to safe drinking water is the most 
imminent environmental threat we face globally.
    Again, welcome, Administrator Wheeler, and I look forward 
to asking you questions later this morning. I thank the 
chairman for yielding me this time and for holding this 
important hearing, and with that seeing no one else wanting my 
remainder of the time, I yield back.
    [The prepared statement of Mr. Shimkus follow:]

                Prepared statement of Hon. John Shimkus

    Thank you, Mr. Chairman.
    I want to join you in welcoming Administrator Wheeler 
before our committee today to discuss the President's proposed 
budget for fiscal year 2020 for the Environmental Protection 
Agency. We appreciate you being here today, Administrator, and 
look forward to our discussion.
    Mr. Chairman, this Congress is not the first time that I 
have been the Lead Republican on this subcommittee or some 
version of it. Some of you may know this, but I was also the 
Lead Republican on this subcommittee in the 110th Congress. 
That Congress followed twelve years of Republican control of 
the House, and the new Democrat Majority was eager to bring in 
the Republican-run EPA to criticize their budget proposal 
because it wasn't as robust as the Majority felt was necessary.
    I left that hearing that day with a couple of thoughts in 
mind.
    First, the Constitution gives Congress sole authority to 
raise and spend revenue. So when Congress examines 
Administration budget requests, as we are today, we cannot 
divorce ourselves and our decisions from that discussion. 
Speaker Pelosi often says,``show me your budget, show me your 
values," and I think that's true. I'm glad we have a budget 
proposal from EPA to warrant today's hearing, as I understand 
that it's unlikely the House will have an opportunity to vote 
on a budget proposal of our own this year.
    My second thought from that 2010 hearing is that we need to 
know that we are getting a good return on our investment in 
environmental protection for the billions we are giving the 
Environmental Protection Agency to spend. There are lots of 
worthy ideas and programs that EPA could address, but does it 
make the most sense to have the EPA be the one to do it every 
time? We should not advocate for more funding if all it is 
buying us is bureaucracy, regulatory confusion with other 
agencies, or ``woke" sounding programs that don't really 
improve public health or the environment.
    Finally, and to tie both points together, money is not the 
end all be all when it comes to an agency's success. More money 
does not necessarily make a person care about their 
environment. There are other considerations, including fidelity 
to the laws Americans ask us to pass, stewardship of the Agency 
to ensure it is doing the best it can with what it has, 
concrete metrics that can demonstrate progress is being made, 
and responsiveness to the environmental and public health 
concerns of the American people.
    Before I yield back my time, Mr. Chairman, I do want to 
thank Administrator Wheeler for some of his recent comments 
regarding safe drinking water. As our colleagues on this 
subcommittee know, improvements to and reauthorization of the 
Safe Drinking Water Act was a bipartisan priority and success 
last Congress. I applaud you, Administrator, for recognizing 
that access to safe drinking water is the most imminent 
environmental threat we face globally.
    Again, welcome, Administrator Wheeler, and I look forward 
to asking you questions later this morning.
    I thank the Chairman for yielding me this time and for 
holding this important hearing.

    Mr. Tonko. The gentleman yields back. The Chair now 
recognizes Representative Pallone, chairman of the full 
committee, for 5 minutes for his opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    A budget is an expression of priorities and it should be 
clear to anyone reading the EPA budget proposal that President 
Trump does not prioritize public health or the environment. The 
budget would cut EPA funding by 31 percent, more than any other 
Cabinet-level agency. It would eliminate important programs 
like beach grants to help coastal communities like mine ensure 
that the water is safe to swim in. It also fails to deliver on 
many of the promises the Trump administration has made on 
dangerous toxins like lead and PFAS.
    And today we will have an opportunity to measure EPA's 
progress over the past year, since the subcommittee heard from 
then-Administrator Pruitt on EPA's budget last year. That 
hearing last year showed bipartisan concern about Administrator 
Pruitt's scandals, Agency mismanagement and repeated attacks on 
public health. And when Administrator Pruitt resigned, there 
was hope on both sides of the aisle that the situation at EPA 
would improve.
    And I was pleased when Mr. Wheeler, then the Acting 
Administrator, personally committed to make staff available to 
the committee for briefings and to testify. Unfortunately, when 
I look at the past year, it does not seem that EPA has come 
very far. In fact, on some issues it seems the Agency has 
actually moved backward. With Administrator Wheeler at the 
helm, EPA has continued to attack science, transparency, and 
public health, and the Agency is working to abandon action on 
climate change, and air quality, in my opinion.
    EPA scrapped the sensible carbon reduction requirements in 
the Clean Power Plan and replaced it with a scam that is more 
costly and less protective than no rule at all. EPA also walked 
away from negotiations with California over the Trump's 
administration's rollback of clean air standards. And 
Administrator Wheeler publicly vowed to revoke California's 
waiver to implement stronger vehicle pollution control 
requirements.
    And in a move that I think makes absolutely no sense, EPA 
took the first step on a path to sabotage the successful 
mercury and air toxic standards. These standards protect 
communities from dangerous mercury and hazardous air pollution 
that spew from coal and oil-burning power plants. This action 
is so bad that even the power industry opposed it.
    So I am very concerned that EPA's implementation also of 
the revised Toxic Substances Control Act, or TSCA, is leaving 
workers, children, low-income communities, communities of 
color, and the general public at an unacceptable risk. The 
regulation of asbestos is still heading in the wrong direction. 
EPA is still allowing new uses of asbestos under the new 
chemical program, and still ignoring legacy asbestos exposures, 
and its risk assessment. And last month, the EPA finalized a 
rule on methylene chloride that fell far short of what is 
needed to protect public health and what was promised to this 
committee and me. EPA is also still working to remove important 
protections in the Risk Management Planning Program that might 
have prevented or reduced the impacts of two recent fires in 
the Houston area.
    So, I also remain concerned that a lot of troubling 
activities that began on Administrator Pruitt's watch are still 
happening. EPA is still hiring industry lobbyists as regulators 
and that raises red flags on ethics issues. It is also still 
shortening comment periods, hiding science from the American 
public, and refusing to provide requests to documents to 
Congress. And Members of both parties in both the House and the 
Senate are unable to get answers from EPA and the 
administration, and this is unacceptable because Congress must 
be able to conduct oversight. The Agency's refusal to provide 
information also creates the distinct impression that the EPA 
has something to hide.
    So the track record of the EPA is abysmal, in my opinion. I 
am hoping, Mr. Wheeler, that we can look forward, well, I look 
forward to your testimony and hope that we can begin some 
changes and answers to this committee's questions today. And 
with that unless someone wants my time I yield back, Mr. 
Chairman.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    A budget is an expression of priorities, and it should be 
clear to anyone reading the EPA budget proposal that President 
Trump does not prioritize public health or the environment.
    The budget would cut EPA funding by 31 percent--more than 
any other cabinet level agency. It would eliminate important 
programs like Beach Grants that help coastal communities like 
mine ensure that the water is safe to swim in. It also fails to 
deliver on many of the promises the Administration has made on 
dangerous toxins like lead and PFAS.
    Today we will have an opportunity to measure EPA's progress 
over the past year, since this Subcommittee heard from then-
Administrator Pruitt on EPA's budget. That hearing showed 
bipartisan concern about Administrator Pruitt's scandals, 
agency mismanagement, and repeated attacks on public health. 
When Administrator Pruitt resigned, there was hope on both 
sides of the aisle that the situation at EPA would improve. I 
was pleased when Mr. Wheeler, then the Acting Administrator, 
personally committed to make staff available to the Committee 
for briefings and to testify.
    Unfortunately, when I look at the past year, it does not 
seem that EPA has come very far. In fact, on some issues, it 
seems the agency is moving backward. With Administrator Wheeler 
at the helm, EPA has continued to attack science, transparency, 
and public health.
    The agency is working to abandon action on climate change 
and air quality. EPA scrapped the sensible carbon reduction 
requirements in the Clean Power Plan, and replaced it with a 
scam that is more costly and less protective than no rule at 
all. EPA also walked away from negotiations with California 
over the Trump Administration's rollback of clean car 
standards, and Administrator Wheeler publicly vowed to revoke 
California's waiver to implement stronger vehicle pollution 
control requirements.
    And in a move that makes absolutely no sense, EPA took the 
first step on a path to sabotage the successful Mercury and Air 
Toxics Standards. These standards protect communities from 
dangerous mercury and hazardous air pollution spewed from coal 
and oil-burning power plants. This action is so bad, even the 
power industry opposes it.
    I also remain concerned that EPA's implementation of the 
revised Toxic Substances Control Act is leaving workers, 
children, low income communities, communities of color, and the 
general public at unacceptable risk. The regulation of asbestos 
is still heading in the wrong direction. EPA is still allowing 
new uses of asbestos under the new chemicals program and still 
ignoring legacy asbestos exposures in its risk assessment. And 
last month, EPA finalized a rule on methylene chloride that 
fell far short of what is needed to protect public health and 
what was promised to this Committee and me.
    EPA is also still working to remove important protections 
in the Risk Management Planning program that might have 
prevented or reduced the impacts of two recent fires in the 
Houston area.
    I also remain concerned that a lot of troubling activities 
that began on Administrator Pruitt's watch are still happening. 
EPA is still hiring industry lobbyists as regulators and still 
raising red flags on ethics issues.
    It is also still shortening comment periods, hiding science 
from the American public, and refusing to provide requested 
documents to Congress.
    Members of both parties in both the House and the Senate 
are unable to get answers from EPA and this Administration. 
This is simply unacceptable because Congress must be able to 
conduct oversight. The agency's refusal to provide this 
information also, creates the distinct impression that this EPA 
has something to hide.
    The track record of the EPA over the last two years is 
abysmal. So, Mr. Administrator, I look forward to your 
testimony, and hope that you will begin answering this 
Committee's questions today.
    Mr. Tonko. Seeing no one, the gentleman yields back.
    In the absence of the Republican leader of the full 
committee, Mr. Walden, the Chair will recognize the gentleman 
from Ohio, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. I appreciate the 
recognition and I am sure if Chairman Walden was here, he would 
offer these words himself.
    But I would like to welcome our fellow Ohioan and EPA 
Administrator Andrew Wheeler this morning. Because of Mr. 
Wheeler's years of experience as a special assistant at the 
Pollution Prevention and Toxics Office, and as a majority staff 
director, and counsel at Senate EPW, and through his work with 
stakeholders affected by EPA regulations, I know that EPA's 
mission and objectives are in good hands.
    It is possible to have both a vibrant and growing economy 
along with sound policies that protect our environment. These 
goals are not mutually exclusive, and I know Administrator 
Wheeler understands that especially as the Agency works on 
critical drinking water issues, continued TSCA implementation 
and cleaning up, and redeveloping contaminated lands while 
simultaneously seeking to reduce unnecessary regulatory burdens 
for our small businesses and job creators.
    So, Mr. Wheeler, thank you for being here today and for 
your testimony on EPA's fiscal year 2020 budget. These are 
really important issues and I look forward to the discussion. 
With that unless someone else wants some time, Mr. Chairman, I 
yield back.
    Mr. Tonko. The gentleman yields back. The Chair would like 
to remind members that pursuant to committee rules, all 
Members' written opening statements shall be made part of the 
record.
    I now have the pleasure of introducing our witness for 
today's hearing, the Honorable Andrew Wheeler, Administrator of 
the United States Environmental Protection Agency. Before we 
begin, I would like to explain the lighting system. In front of 
you, Administrator, are a series of lights. The light will 
initially be green at the start of your opening statement. The 
light will turn yellow when you have one-minute remaining. 
Please begin to wrap up your testimony at that point. The light 
will turn red when your time expires. And at this time, the 
Chair will recognize Administrator Wheeler for 5 minutes to 
provide his opening statement. Welcome, Mr. Wheeler.

                 STATEMENT OF ANDREW R. WHEELER

    Mr. Wheeler. Thank you. Good morning, Chairman Tonko, 
Ranking Member Shimkus, and members of the subcommittee. I am 
joined by Holly Greaves, EPA's CFO, and we are here today to 
discuss EPA's proposed 2020 budget. The budget resolution 
ensures that the Agency can continue President Trump's bold 
agenda and the tremendous progress we have made over the past 2 
years.
    The U.S. is a global leader in clean air and access to safe 
drinking water, and we are cleaning up contaminated lands at 
the fastest pace in over a decade. At the same time, EPA has 
finalized 38 deregulatory actions, saving Americans more than 
$3 billion in regulatory costs, and we have an additional 39 
actions in development proposed to save billions more. The 
Trump administration is proving that environmental protection 
and historic economic growth can go hand in hand. My testimony 
will highlight how the President's budget will continue this 
progress.
    I believe that water issues from drinking water to marine 
litter to infrastructure are the largest and most immediate 
environmental issue facing the world today. The budget request 
provides critical support for water quality protection. One 
challenge we face is lead exposure. Through the new Federal 
lead action plan, EPA is coordinating with our Federal 
counterparts to reduce childhood lead exposure. Last week we 
issued a status report to hold ourselves accountable to the 
public and clearly communicate the steps we are taking to 
implement the action plan.
    To bolster these efforts, the budget proposed $50 million 
to establish a new Healthy Schools Grant Program to reduce 
exposure to lead and other toxins in schools. We are also 
moving forward to update the Lead and Copper Rule for the first 
time in over 2 decades. Our proposal would ensure that we 
address the most corrosive pipes in the most at-risk 
communities first.
    Another challenge is addressing potential sources of 
contamination. In February, EPA released its PFAS Action Plan, 
the most comprehensive, multimedia research and action plan 
ever issued by the Agency to address an emerging chemical of 
concern. On the marine litter issue, billions of pounds of 
waste enter our oceans each year, harming marine life and 
coastal economies. EPA's Trash Free Waters program is stepping 
up to help the international community capture marine litter or 
prevent it from reaching the ocean.
    On infrastructure, the President's budget includes a 25 
percent increase to WIFIA from last year's request. This new 
program is already producing tremendous results. Today, EPA has 
issued eight WIFIA loans totaling more than $2 billion in 
Federal credit assistance. I was in Miami-Dade County on Friday 
to announce a $99 billion WIFIA loan to help protect Florida's 
beaches and water resources. We recently announced our third 
round of funding which could support $12 billion in water 
infrastructure projects and create more than 180,000 jobs.
    To expand on these efforts, President Trump signed 
America's Water Infrastructure Act or AWIA. While funding for 
AWIA was not included in fiscal year 2019 appropriations that 
Congress enacted, EPA does propose funding of 83 million in 
this budget request to begin implementation of this important 
new law. The budget request also includes approximately $2 
billion in Federal dollars towards the two SRFs. The 
combination of Federal grants, State matches, repayments, and 
interest all flow back into each revolving fund creating $80 
billion in the nationwide fund as of this year. Regarding the 
Great Lakes Restoration Initiative, as the President stated, 
this is a unique and important program and I fully support his 
decision as it relates to funding the program.
    When it comes to reducing air pollution, we are moving 
forward with common-sense reforms that will help more 
communities reach attainment of the NAAQS standards. For 
example, last week we announced that the Cleveland area is now 
meeting the standards for particulate matter. The cleanup of 
contaminated lands also plays a crucial role in revitalizing 
communities throughout the country. In fiscal year 2018, EPA 
deleted all or part of 22 sites from the National Priorities 
List, the largest number of deletions in one year since fiscal 
year 2005.
    Our next responsibility is ensuring that chemicals used in 
commerce and sold in the marketplace are safe for public use. I 
am proud to report that EPA continues to meet the major 
statutory deadlines of the amended TSCA. Earlier this month, we 
finalized a ban on retail sales of methylene chloride for 
consumer paint and coating removal, the first risk management 
action under Section 10 of amended TSCA.
    To ensure efforts are effective and durable, EPA has a 
healthy and robust enforcement program. At one end of the 
spectrum, we are increasing compliance through self-audits 
which are often the quickest way to correct environmental 
harms. At the other end of the spectrum, we are deterring 
noncompliance by increasing the number of new criminal cases, 
reversing a downward trend that began in 2011. This is the type 
of leadership that gives confidence to the public, the 
regulated community, and our allies around the globe.
    Thank you for the opportunity to speak with you today and I 
look forward to answering your questions.
    [The prepared statement of Mr. Wheeler follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Tonko. Thank you. That concludes the Administrator's 
opening statement. We will now move to member questions. Each 
Member will have 5 minutes to ask questions of our witness. And 
I will point out that we are going to stay very strict with the 
5 minutes because I am told that the Administrator has a hard-
out at 12:30, is it? So we will be very strict about the 5-
minute effort. Since our witness can only be here to 12:30, we 
are going to--moving forward now with questions of our guest, I 
will start by recognizing myself for 5 minutes.
    Administrator Wheeler, in the past we have spoken about the 
Strengthening Transparency in Regulatory Science proposed rule 
which is issued by your predecessor and widely criticized by 
the scientific community. Can you provide us an update on the 
status of that proposal?
    Mr. Wheeler. We are still working on that. We intend to 
move forward with it. You know, it is important--there has been 
a lot of criticism. I think a lot of the criticism is from 
people who don't fully understand what we are doing with the 
proposal. I cut my teeth at EPA on the community right to know; 
and I believe the more information we make available to the 
public the more robust our regulations will be.
    Mr. Tonko. So when can we expect, you know, a better, a 
proposal that is outlined for us?
    Mr. Wheeler. Before the end of this year.
    Mr. Tonko. OK. And how EPA chooses to collect and evaluate 
scientific research is an incredibly important step in the 
regulatory process including for assessing a chemical's 
potential risk under the TSCA law. Before your confirmation to 
this position, you sent a letter to Senator Carper where you 
committed to submit EPA's systematic review method for TSCA 
risk evaluations to the National Academy of Sciences for review 
and to make public any feedback that the Agency receives. What 
is the status of that National Academy review?
    Mr. Wheeler. I believe we submitted some of the data so 
far, but it is for the first ten chemicals and those risk 
assessments aren't supposed to be finished until the end of 
this year.
    Mr. Tonko. Will the Academy have complete discretion to 
select scope and membership of the review team?
    Mr. Wheeler. I believe so. I don't believe we can even 
dictate to the Academy who is on the review.
    Mr. Tonko. So they will have complete discretion.
    Mr. Wheeler. Yes, is my understanding.
    Mr. Tonko. In 2017, the Office of Research and Development 
developed a review report for the Office of Pesticides Programs 
on the epidemiology and health effects research regarding 
exposure to glyphosate. Why was the work not included in your 
public release of that research and will you release it now?
    Mr. Wheeler. I am sorry. I have to get back to you on that. 
I am not familiar with the----
    Mr. Tonko. OK, the Integrated Risk Information System or 
IRIS handbook was ready for release in December of 2018. Will 
you publicly release the IRIS handbook now?
    Mr. Wheeler. I don't believe it was ready for release. I 
believe we are still working through the handbook. I don't 
believe it is ready to be released yet, but it will be 
released.
    Mr. Tonko. When should we anticipate the----
    Mr. Wheeler. I will have to get back to you on a deadline 
for that.
    Mr. Tonko. Formaldehyde was recently designated as a high 
priority candidate for risk evaluation under TSCA. It has also 
been the subject of a long-delayed review under IRIS. What is 
the status of the IRIS formaldehyde assessment and will that 
work inform the risk evaluation process under TSCA?
    Mr. Wheeler. Yes. That work will inform the risk evaluation 
under TSCA. At this point we are not moving forward with the 
IRIS review. We decided to put formaldehyde through TSCA. If 
you put a chemical through the TSCA program you can regulate 
the chemical at the end of the process. IRIS is not a 
regulatory mechanism.
    Mr. Tonko. Well, will the IRIS assessment be released for 
interagency review and what are the plans for external 
scientific peer review?
    Mr. Wheeler. What we did last summer was go back to all of 
our program offices and ask them what their high priority 
chemicals are for IRIS and formaldehyde did not come back as 
one of the high priority chemicals selected. If we were to move 
forward with the formaldehyde IRIS assessment it would be a 
minimum of 18 months and we decided that it was more important 
to go ahead and put formaldehyde through the TSCA program; 
because at the end of the day we can regulate formaldehyde 
under TSCA. You cannot regulate a chemical under IRIS.
    Mr. Tonko. Given TSCA's requirement to make publicly 
available all health and safety data being used in risk 
evaluations, when can we expect the IRIS formaldehyde 
assessment to be released?
    Mr. Wheeler. We are not planning on moving forward with the 
IRIS assessment for formaldehyde. We are moving forward under 
TSCA.
    Mr. Tonko. Mr. Wheeler, going back to the transparency in 
science proposed rule, the proposal indicated that the 
Administrator would be empowered to grant exemptions at his 
discretion to address issues on a case-by-case basis. Do you 
have any thoughts as to how an administrator should go about 
granting exemptions if this proposal moves forward?
    Mr. Wheeler. Well, I think if there is an important 
scientific study where the data is not available to the public, 
the Administrator should weigh whether or not it is important 
to move forward with that study as part of the regulatory 
process. And I believe that that is a decision that 
administrators can make on a case-by-case basis, but it is 
important to remember that the proposal only is for studies 
going forward. It is not retroactive.
    Mr. Tonko. Well, I believe Mr. Pallone may ask about PV29, 
but we have seen EPA under your leadership keep data and 
reports hidden for the benefit of industry even when it was not 
allowable under the law in the case of PV29, all while 
promoting a transparency rule which scientific and medical 
experts say will make it more difficult for EPA to use robust 
science in its rulemaking process. I urge you to release the 
reports I have raised, along with others which I intend to 
submit for the record.
    With that, I yield back, and I recognize Representative 
Shimkus for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Administrator Wheeler, I want to focus my questions in two 
areas of interest, the substantial backlog of applications in 
the Toxic Substance Control Act, or TSCA new chemicals 
provision, and the Renewable Fuel Standard. According to the 
Agency's website, as of three weeks ago the number of notices 
awaiting completion of review since this law was enacted 34 
months ago was 62 percent higher than the historical caseload 
of new chemical applications.
    More importantly though, is that to avoid delays in getting 
innovative, greener, safer chemicals to the market--and I mean 
that is one of the benefits, we want to get safer chemicals to 
the market versus chemicals that may not be as safe that are in 
the market right now--TSCA specifically mandates completion of 
new chemical reviews within 90 days, but not later than 180 
days.
    How many of those 527 pending applications are older than 
180 days?
    Mr. Wheeler. Two hundred seventy at this point. It is lower 
than what it was. We are working to reduce the backload. It has 
been within the time frames for both the new chemicals and the 
existing chemicals program under the new TSCA there has been 
some challenges, but we are processing them faster than we were 
a year ago.
    Mr. Shimkus. Right. And the media asks me about this like 
every week, so that is why I don't think it is any surprise 
that I am going down this part of the questioning because the 
whole idea is to get this process moving. How many are older of 
these 527 or whatever, were older than 90 days?
    Mr. Wheeler. Older than 90 days would be 110 to 120 in the 
over 90, but under 180.
    Mr. Shimkus. So, are these delays an EPA labor or a legal 
problem?
    Mr. Wheeler. It is more a labor problem at this point. We 
had to work through the program on how the program was going to 
be implemented, then during that working through the 
implementation phase we got the backlog. So we are trying to 
process the new chemicals as they come in as quickly as 
possible and also work on the backlog.
    Mr. Shimkus. Right. Do you have----
    Mr. Wheeler. But we are reaching out to manufacturers to 
let them know about the timing on a case-by-case basis.
    Mr. Shimkus. Do you have a plan to devote resources to 
addressing the backlog of old, pre-manufactured notices that 
have been languishing for many months or years?
    Mr. Wheeler. We do, and we have been, you know, and it is 
in part a staffing problem. Last year we hired 25 new people to 
work on TSCA, but at the same time we lost 25 people. So it is 
kind of keeping our head above water at times on staffing.
    Mr. Shimkus. Will you try to quickly place more experienced 
scientists and engineers in the TSCA program to complete more 
timely, new chemical reviews and risk evaluations?
    Mr. Wheeler. Yes.
    Mr. Shimkus. I think that your answer preceded my question. 
Before my time concludes, I want to touch on the Renewable Fuel 
Standard. I see David Loebsack here. I am sure he is going to 
direct some questions in that area also. As you know, after 
2022, EPA has a great deal more flexibility to set the targets 
in the RFS. Has the Agency already begun to prepare for the RFS 
post-2022?
    Mr. Wheeler. No. Right now, we are focused on the E15, the 
RIN price mechanism, the reset, the RVO for this year and----
    Mr. Shimkus. You have some other issues on your plate.
    Mr. Wheeler. Right.
    Mr. Shimkus. OK.
    Mr. Wheeler. We have five pending regulations on the RFS.
    Mr. Shimkus. Well, and as you know we were dealing, trying 
to do something legislative, et cetera, in law that would help 
give you more direction.
    Mr. Wheeler. That would be great.
    Mr. Shimkus. I still think that is very, very important 
because this 2022 debate is real. We don't know if you will be 
there. We don't know if we will have a new administration. We 
don't know who the new EPA Administrator would be. It is kind 
of a roll of the dice, don't you think?
    Mr. Wheeler. Yes. I think there is a lot of discussion that 
needs to take place between now and 2022. And while the 
administration, I don't believe, has an official position on 
RFS legislation, I do think the program could, for post-2022 
would be strengthened by congressional views on this.
    Mr. Shimkus. Do you expect the demand for biofuel would be 
higher, lower, or about the same? Again, I am just talking a 
crystal ball. Where do you think we are headed in just biofuel 
in the mix?
    Mr. Wheeler. Post-2022, well, I mean it really depends on 
the use of fuel in the automobile industry. You know, I worked 
as a staffer on both the 2005, 2007 energy bills and at that 
point in time we did not project the vehicle miles traveled 
would be going down or the gasoline usage would be going down. 
We thought it would be going up. And the legislation as you 
remember was drafted with the expectation that we would 
continue to use more gasoline and that hasn't been the case 
with more fuel-efficient cars, electric vehicles, and natural 
gas-powered vehicles.
    So, and there is a lot of drivers as far the fuel usage, 
and then by increasing like the E15 should also help increase 
the volumes for ethanol.
    Mr. Shimkus. Thank you. My time has expired. Thank you, Mr. 
Chairman.
    Mr. Tonko. You are welcome. The gentleman yields back. The 
Chair now recognizes the gentleman from California, 
Representative Peters, for 5 minutes.
    Mr. Peters. Thank you, Mr. Chairman. I want to start with 
two thank you's, you may not get from this side of the aisle. 
One is, I think, I am the only former EPA employee on the 
committee. I worked in the TSCA program and though they need 
people, I am done with that particular phase of my career.
    Mr. Shimkus. We could use you. I think there are some 
forms.
    Mr. Wheeler. We could use more help.
    Mr. Peters. I also saw on their behalf I want to say I am a 
little concerned about the cuts in general. I think these 
people work very hard. They do important work and we need to 
support them. I also want to thank you for the loan that San 
Diego received, $614 million loan for our water recycling 
project known as Pure Water. And connected with that though, as 
you pointed out that is a very important program, unfortunately 
you are requesting $300 million less than the enacted level in 
2019. I will just, without, we don't have time to go into that 
but I will just flag, I think that is the wrong way to go for 
such an important program that provides so much leverage to 
communities for environmental protection. But I did want to 
talk about the U.S.-Mexico Border Water Infrastructure Program 
or BWIP.
    As you know, the City of San Diego has for decades 
struggled to end the continuous discharge of sewage along the 
border into the city from Tijuana. Millions of gallons of 
sewage still routinely close beaches. In fiscal year 2020, you 
propose eliminating resources and staff for the U.S.-Mexico 
Water Infrastructure Program. The program, quote, ``supports 
the planning, design, and construction of water and wastewater 
treatment facilities along the border with all projects 
benefiting communities on the U.S. side of the border.''
    The EPA has identified nearly $125 million in drinking 
water and wastewater infrastructure projects along the border 
in need of funding to protect public health and environmental 
impact in the United States, and yet the budget would eliminate 
the U.S.-Mexico border program as part of the effort to 
restore, to focus resources on core environmental work. Now 
since the program began in 1997, it has provided hundreds of 
thousands of U.S. households along the border adequate drinking 
water and wastewater infrastructure. Initially funded with $100 
million per year, however, it has been reduced over the last 20 
years to less than 10 million.
    Why would you say BWIP is no longer considered as part of 
the effort to focus resources on core environmental work?
    Mr. Wheeler. Well, first of all, Congressman, thank you for 
the comments of San Diego and the WIFIA loan that we provided 
them. I think that is a good example on how we can continue to 
support border projects. The budget does eliminate most 
regional voluntary programs, but we can still address those 
same problems and concerns through existing programs at the 
Agency such as the SRF.
    I am told that between with the border States--Arizona, 
California, New Mexico, and Texas--there are 400 million 
available through water infrastructure that can go towards the 
border through the SRF. With the WIFIA we can continue to look 
at new, innovative ways of funding border initiatives with the 
WIFIA loan program. We did ask for 25 million more than what we 
requested last year for WIFIA. And then we also have the new 
AWIA, which Congress just passed last year; where we are asking 
for 83 million which we believe will really help smaller 
communities address water problems.
    So we are trying to spread our money among different 
programs to address water concerns----
    Mr. Peters. Right, and obviously the concern we have is 
that the BWIP program is focused on the border. So the SRF 
projects are only, the money is only going to projects in the 
United States. To be eligible for the BWIP funding, projects 
must be located within 100 kilometers or 62 miles of the U.S.-
Mexico border. So are you going to do something specifically to 
make sure that border projects have dedicated funding from the 
SRF?
    Mr. Wheeler. Well, again, you know, we will spend the money 
appropriated by Congress, if Congress does give us money for 
the program. But we are also working with the Department of 
State and other Federal agencies to determine what else we can 
do on the border. And my regional administrator, Mike Stoker, 
in California, has been down to the border numerous times and 
talking to our Mexican counterparts. I will be down in Mexico 
for the CGC, I believe. It is the Canadian, U.S., Mexican 
environmental administrators meeting in June and this is, or 
actually the end of May.
    Mr. Peters. OK.
    Mr. Wheeler. This is a high priority for me when I meet 
with my counterparts----
    Mr. Peters. I just expressed the concern. I appreciate that 
too, and I appreciate the Administrator from Region 9 has been 
active and present. But as you know, this is unique among 
Federal funding programs because it is the only Federal program 
that can fund projects on both sides of the border with all 
projects benefiting communities on the United States side of 
the border, so I express that concern. I raise that objection 
and hope to be able to provide you and your administrator with 
specific tools for the U.S.-Mexico border by preserving the 
BWIP. And I yield back.
    Mr. Tonko. The gentleman yields back. The Chair now 
recognizes the Republican leader of the full committee, the 
gentleman from Oregon, Representative Walden, for 5 minutes.
    Mr. Walden. Thank you, Mr. Chairman, and thank you for 
having this hearing. And to the Administrator, welcome back. I 
know your years as a Senate staffer make you no stranger to 
this kind of body and we are glad to have you over here in the 
people's house today.
    I appreciate your commitment, Mr. Administrator, this 
administration and its budget to three goals to the Agency's 
core mission, cooperative federalism, and rule of law and 
process. I think that is all really important and I appreciate 
your leadership on so many issues including Waters of the U.S. 
In my district I heard about it again when I did a series of 
town halls a week ago. Farmers and ranchers are pretty 
concerned, but appreciative of where you are taking that rule 
and I think that gives them some certainty while protecting the 
environment, but not going too far.
    Three weeks ago, you gave a speech about the importance of 
water to global public health, particularly safe drinking water 
and how unsafe drinking water poses the greatest, most 
immediate global threat to the environment. Can you please 
expound upon that position and how would you rate water quality 
in the good old U.S. of A.?
    Mr. Wheeler. Our water quality, I believe, is the safest in 
the world. Back in the 1970s, 40 percent of our water systems 
failed to meet EPA standards. Today, 92 percent of our water 
systems meet the EPA standards every single day, but worldwide 
it is a huge issue. You have one to three million people dying 
based on water, unsafe drinking water or water sanitation 
issues. The U.N. estimates 1,000 children die every single day 
from lack of potable water. I think that is a huge issue and I 
think that we have the skills, we have the technology to help 
solve this problem worldwide.
    Mr. Walden. Now obviously you know, Mr. Administrator, the 
Energy and Commerce Committee in the last Congress rewrote the 
Safe Drinking Water Act. We did that in a bipartisan way. We 
had some good, vigorous negotiations and that became law, the 
President signed it. And so, I would like to ask you a bit 
about the longstanding priority of this committee that when it 
comes to safe drinking water, Congress, last year, increased 
the authorization for the Drinking Water Revolving Loan Fund. 
Does the administration support a robustly funded Drinking 
Water State Revolving Fund?
    Mr. Wheeler. Yes, we do. And I point out that at this point 
in time because money is added to the SRF every year, we loan 
it out, it comes back to the program, at this point in time 
there is $80 billion circulating through the two SRFs that are 
currently out in projects around the country and that is key. 
But we did focus on our budget request, additional money for 
the WIFIA program, 25 million more than we asked for last year, 
and then we also asked for 83 million for AWIA which Congress 
passed last fall, but which we did not receive any funding for 
this year.
    We actually have a number of deadlines that we are 
unfortunately not going to be able to meet this year because of 
no funding for AWIA, but we are asking for 83 million because I 
believe there are several really new, innovative programs in 
the AWIA legislation that will help smaller communities, rural 
communities with their drinking water systems. And so I think 
it is important to get those programs up and running as quickly 
as possible.
    Mr. Walden. Yes, I do too, and we will look forward to 
working with you on those. Are any States having trouble with 
their matching fund requirements under the Act? What are you 
hearing from States?
    Mr. Wheeler. Well, we certainly had issues with Puerto Rico 
even prior to the hurricanes there on the SRF. At this point I 
am not aware of any States in particular with matching fund 
issues. We can get back to you on that, but I am not aware of 
any the State matching fund issues.
    Mr. Walden. OK, that is good. We are just trying to see 
what works and what doesn't, what we need to tweak. I 
understand the Agency continues its Lean program or its effort 
to assess and align its work force for better outputs. Is your 
team looking at succession planning and aligning expertise with 
offices?
    Mr. Wheeler. Absolutely. The Lean management system, I 
think, has already shown a lot of success. It has shown success 
on our permitting side, also on enforcement side. We are 
getting the enforcement reports out to the regulating community 
faster, which gets environmental improvements done faster. And 
I am very concerned about succession planning at the Agency. 
Right now, 40 percent of our work force is eligible to retire 
over the next 5 years.
    We hired a new Human Resources Director 2 months ago. I 
actually interviewed the person and I am told that that is not 
typical for the Administrator because about three levels below 
me, but I thought it was important for me to interview the new 
Human Resources Director because I didn't want to hit her with 
a dozen issues on her first day without having met me first.
    Mr. Walden. And I appreciate that. And I just want to close 
with this, Mr. Chairman. In the last Congress we had some level 
of difficulty getting your predecessor up here to testify on 
the budget. We appreciate your willingness to do so and to work 
with the committee on this and all host of other issues, so 
thank you and I yield back.
    Mr. Tonko. The gentleman yields back. The Chair now 
recognizes the chair of the full committee, the gentleman from 
New Jersey, Representative Pallone, for 5 minutes.
    Mr. Wheeler. Mr. Chairman, before he begins could I correct 
one thing that I said? I have said twice that we had a 25 
million increase in WIFIA request. It was actually 25 percent. 
I have said that twice. I just want to correct that for the 
record.
    Mr. Tonko. OK. Thank you very much.
    Mr. Pallone. Thank you, Mr. Chairman.
    Administrator Wheeler, you could tell from my opening that 
I am deeply concerned about the direction of the EPA. As I said 
in my opening, I had hoped when Scott Pruitt resigned that EPA 
would return to its mission of protecting human health and the 
environment, but I think that this budget shows that protecting 
public health is not a priority. So I have a lot of questions, 
but I am going to try to move quickly and ask you really to 
answer yes or no. And, you know, if you can't answer yes or no 
then I am probably just going to assume it is a no.
    Well, let me start. In 2017, Scott Pruitt committed to me 
in this room to expand the risk evaluation for asbestos to 
include exposures to legacy asbestos, but that hasn't been 
done. I think it is unconscionable that we are still importing 
and using asbestos 40 years after EPA started work on a ban, 
despite knowing that it is killing 40,000 people a year in this 
country. So my question is will you commit to banning ongoing 
uses of asbestos under TSCA, yes or no?
    Mr. Wheeler. Yes, we are doing more on asbestos than any 
administration in the last 25 years.
    Mr. Pallone. All right, I appreciate that. Let me just keep 
going. Last year, Scott Pruitt committed to me and to the 
public that he would ban methylene chloride. But now you have 
moved forward with only a partial ban, leaving commercial uses 
in place. And this chemical has killed scores of workers and 
needs to be banned for commercial uses as well, in my opinion. 
So will you commit to banning commercial uses of methylene 
chloride?
    Mr. Wheeler. We are taking comment on a training and 
certification program for commercial users.
    Mr. Pallone. All right. Well, so far, the answer I guess is 
no.
    We have also heard a lot of talk from EPA on PFAS 
chemicals, but we haven't seen action to go along with it. All 
we have so far on drinking water is an intention to reach a 
regulatory determination on two PFAS chemicals by the end of 
the year. I don't think that is enough. So the question is, 
will you commit to setting a strict MCL or drinking water 
standard for all the PFAS impacting drinking water in this 
country; and will you commit to ensuring that any MCL or 
drinking water standard that you set actually protects public 
health? That should be an easy yes.
    Mr. Wheeler. We have already started the MCL process, but 
we haven't slowed down. We are still enforcing cleanups around 
the country. We have taken eight enforcement actions. We have 
assisted States in dozens of enforcement actions around the 
country.
    Mr. Pallone. All right. Well, it sounds like that is a no, 
too. I just don't see how the American people can trust you to 
protect their health and environment if you don't, you know, 
commit to what I just asked with regard to the MCL. And to make 
matters worse, we have seen serious efforts during your tenure 
to circumvent transparency and hide important risk information 
from the public. So I don't, in my opinion, these efforts have 
gone beyond what we saw in the Pruitt administration and are 
really cause for concern.
    Now let me ask, on Pigment Violet 29 you have so far 
refused to share the scientific studies you used to exonerate a 
chemical many believe to be dangerous and I had to send you two 
letters to get those studies released. And when you do release 
them you still redacted the main data tables you relied on 
which I thought was unacceptable. Will you commit to sharing 
those data tables with this committee and with the American 
public? Do you follow what I am asking you?
    Mr. Wheeler. The data that was redacted was confidential 
business information. As you know under TSCA we are required to 
keep CBI confidential.
    Mr. Pallone. So the answer is no again.
    Mr. Wheeler. Under the law we can't, sir.
    Mr. Pallone. Well, that is a question of interpretation. 
Oftentimes the Trump administration says they are following the 
law and they don't, but whatever.
    On PFAS, EPA recently released a notice of violation 
against Chemours, I guess that is Dupont, one of the main PFAS 
manufacturers, for issues at two PFAS plants. This notice 
should be an important tool for the communities around these 
plants, but the notice and report are so heavily redacted I 
think again it is ridiculous. My staff was able to find much of 
the redacted information already available to the public, but 
even a generic chemical identity which exists just to inform 
the public while protecting CBI was redacted.
    And again, this over-redaction, I know you said it with 
regard to the previous question is, you know, you think you are 
required to do it. But I think it is way beyond what the law 
requires, and I think it is over-redaction, really is, is I 
think offensive to the communities that are dealing with this 
PFAS pollution.
    So let me ask you on that, on this Chemours or Dupont, will 
you commit to sharing an unredacted version of the Chemours 
notice of violation report with this committee and the American 
public?
    Mr. Wheeler. Again we have to safeguard confidential 
business information as required under our statutes. But we 
have directed Chemours to test hundreds of water supplies 
within the areas around the two facilities and they are doing 
that, and we are using our enforcement tools to make sure that 
it is getting done.
    Mr. Pallone. Well, I think again the answer is no and I 
disagree with what you think needs to be redacted, but I think 
you are just not doing enough to protect public health and the 
environment. And I appreciate your willingness to come here 
today, but we need more from you in terms of transparency, 
responsiveness, and action to address serious threats to our 
health. I just, you know, that is just my opinion and I want 
you to know that. I appreciate your coming, but we are not 
getting a lot of this information.
    Thank you, Mr. Chairman.
    Mr. Tonko. The gentleman yields back. The Chair now 
recognizes the gentleman from West Virginia, Representative 
McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. And welcome----
    Mr. Wheeler. Thank you, sir.
    Mr. McKinley [continuing]. My friend. Over the years, the 
various regions of the EPA, the ten regions, have come under a 
lot of criticism autonomously operating as they do, often each 
region operating with its own individuality contrary to others. 
I know in West Virginia that the compliance in West Virginia is 
out of Philadelphia, can be entirely different a thousand feet 
across the river in Ohio that comes out of Chicago. And I saw 
that last week you were putting out a reorganization on that 
long overdue. GAO came out with something back in 2006 called 
for some reorganization. I know that Senator Inhofe back in 
2006 also called for that.
    So I am curious to see a little bit--thank you for--
hopefully you are going to address it thoroughly, but there are 
a couple of things with it. What is your objective and, 
secondly, what are going to be the metrics that we can measure 
that we have now finally gotten control over the ten agencies, 
or ten entities?
    Mr. Wheeler. Certainly. Thank you, Congressman. First of 
all, our administration when we were selecting our regional 
administrators for the regions, we wanted to make sure that we 
selected people that had State experience. And I think that has 
helped us a lot in the regional management of all ten regions, 
having ten regional administrators with former State 
experience.
    But what our regional reorganization, and it takes effect 
on Monday the 15th, we are realigning the regional offices to 
mirror the headquarters. You know, probably the biggest change, 
six of the regions had enforcement divisions, four of the 
regions did not have enforcement divisions. They sprinkled 
their enforcement people throughout each of the program 
offices. One region didn't even have an air division in the 
title. So people had a problem trying to figure out who to go 
to from region to region if you needed a permit or if you 
needed help on a particular issue.
    So what we did was realigned all the regions to mirror the 
headquarters and it is going to allow, for example, the 
enforcement office at EPA headquarters to work more closely 
with the enforcement divisions around the country to make sure 
there is continuity and to make sure that there is consistency 
between the regions and we will do that as well in the program 
offices.
    Mr. McKinley. I think the consistency is long overdue, so 
thank you for doing that. Two quick questions back to the State 
Revolving Fund. I know you have said that there is $80 billion 
now floating through the system, but the optics of cutting $300 
million out this year is hard to promote. Can you explain that 
a little bit better about how cutting $300 million out of an 
appropriation for the State Revolving Fund actually is going to 
help----
    Mr. Wheeler. Well, we are asking----
    Mr. McKinley [continuing]. Get more sewer and water lines 
built, or water lines built around the country?
    Mr. Wheeler. We are asking for close to $2 billion in our 
budget request. It is not as high as what Congress appropriated 
for this year, but we are also asking for an increase in the 
WIFIA program from what we requested last year.
    Mr. McKinley. But the SRF, you are cutting the SRF----
    Mr. Wheeler. We are also requesting----
    Mr. McKinley [continuing]. Three hundred million dollars or 
so. I am just trying to--I am hung up on the optics.
    Mr. Wheeler. I understand.
    Mr. McKinley. Because my issue, every time I go to a county 
commissioner or whatever, they are asking for more money 
finding they need to have water and the infrastructure. And I 
am having a hard time to explain that there is $80 billion 
flowing through the system----
    Mr. Wheeler. There is.
    Mr. McKinley [continuing]. But they are not getting it.
    Mr. Wheeler. But at this point in time we believe the WIFIA 
program offers some more innovative ways of funding some of 
these water projects and we are very encouraged by the 
legislation in the AWIA legislation from last year. So we are 
asking for more money for those two programs because we want to 
see if there is a different way of trying to solve the water 
problems for communities around the country.
    Mr. McKinley. Thank you, Administrator. Maybe we need to 
have more of a conversation later about this. The third and 
last question has to do with a small refinery in West Virginia. 
It is the only refinery we have. It is Ergon, 25,000 gallons a 
day trying to compete with Marathon that is, what, three 
million gallons a day of preparation. But under the DOE and the 
EPA you are treating them all the same.
    I am troubled with that and I am hoping that you will look 
at that dealing with the RINs, how we might be able to take 
care of that. DOE has made some kind of recommendation to you, 
but it is up to you now with the EPA to make a determination of 
whether or not a 25,000-gallon boutique refinery should meet 
the same standards as a 3 million-gallon refinery. Do you have 
a comment about that?
     Mr. Wheeler. That is a very unique refinery. They 
specialize in lube oil instead of gasoline----
    Mr. McKinley. Yes.
    Mr. Wheeler [continuing]. As we have discussed before. I am 
happy to work with you and your office more on that. But it 
presents some different challenges as far as the small refinery 
exemption under----
    Mr. McKinley. Let's find a solution to those challenges, 
OK. Thank you.
    Mr. Tonko. The gentleman yields back. The Chair now 
recognizes the gentlelady from the State of Delaware, 
Representative Lisa Blunt Rochester.
    Ms. Blunt Rochester. Thank you, Mr. Chairman.
    Mr. Wheeler, thank you for joining our committee today to 
talk about your Agency's budget and its priorities under your 
leadership. I do have to start by echoing the sentiments of my 
colleagues. I have a great deal of concern about your proposal 
to cut your Agency and your staff by nearly a third.
    At your Senate confirmation hearing earlier this year, you 
testified that President Trump and the EPA are, quote, 
``focused on putting Americans first,'' end quote. You 
specifically cited the administration's commitment to expanding 
access to safe drinking water and protecting Americans living 
near hazardous sites from health risks.
    Mr. Wheeler, I would like to just start off with a few like 
simple one word, yes or no questions. First, do you stand by 
that commitment?
    Mr. Wheeler. Yes, I do.
    Ms. Blunt Rochester. Yes. Second--thank you--do you believe 
that the Agency's actions under your leadership along with this 
budget proposal reflect that commitment?
    Mr. Wheeler. Yes.
    Ms. Blunt Rochester. And, Mr. Secretary, is it true that 
your fiscal year 2020 budget proposes to eliminate the safe 
water for small and disadvantaged communities' program?
    Mr. Wheeler. Yes, I believe so.
    Ms. Blunt Rochester. Isn't it true that the purpose of that 
program is to support drinking water projects and activities in 
small and disadvantaged communities that are unable to finance 
projects to comply with drinking water regulations under the 
Safe Drinking Water Act?
    Mr. Wheeler. Yes, but we are looking to use the AWIA 
legislation that Congress passed last year to work with those 
same communities. We think the flexibilities of AWIA might be a 
better use of the dollars.
    Ms. Blunt Rochester. So I am going to ask you a question 
because it is my understanding that this money had already been 
appropriated before. Can you give me the rationale? Is there a 
study or something that shows why you made this decision?
    Mr. Wheeler. We are moving forward with the money that was 
appropriated, but as far as for next year, 2020, we believe 
funding the AWIA program which would target the same 
communities might be a more innovative way of using the funding 
from Congress.
    Ms. Blunt Rochester. Has the program even been established? 
I mean it was appropriated, it is my understanding, before this 
year, before you even came on board.
    Mr. Wheeler. I am not sure I understand what you mean.
    Ms. Blunt Rochester. I was aware that $45 million had been 
appropriated for this program, correct?
    Mr. Wheeler. And we are moving forward with the money that 
has been appropriated. But for 2020----
    Ms. Blunt Rochester. But you are shifting.
    Mr. Wheeler [continuing]. We are suggesting the money 
should go to AWIA, 83 million to AWIA to address some of the 
same communities.
    Ms. Blunt Rochester. So again I just want to be clear. Does 
that mean it is not going to be specifically targeted toward 
small and disadvantaged communities? Just so I can have that on 
the record.
    Mr. Wheeler. Not from that program, but there are other 
ways of targeting small, disadvantaged communities through the 
AWIA program.
    Ms. Blunt Rochester. So we do have a commitment that at 
least $45 million will be targeted to small and disadvantaged 
communities?
    Mr. Wheeler. I don't know the dollar amount. It depends on 
what the appropriations that we do receive for AWIA, but the 
program that you are asking about that money will be going out 
this year.
    Ms. Blunt Rochester. OK, so first of all, my concern is 
that----
    Mr. Wheeler. So $45 million will be going out there.
    Ms. Blunt Rochester [continuing]. There was a program, the 
money wasn't appropriated, now we are kind of putting it all 
together. I just want to share with you, in Delaware we have a 
small town called Ellendale and it is a community that has 
struggled to have clean, safe drinking water. They have had 
elevated levels of bacteria and nitrates and iron in the water 
and fortunately they have had residents like Mr. Harold Truxon 
and Ms. Delores Price who have determined and worked hard to 
make sure that they passed a referendum after two failed ones, 
after 35 years of trying to get safe drinking water, 400 people 
in this small community, 20 percent poverty level, and to me 
budgets and calendars reflect priorities.
    I am concerned that in addition to this, there is also the 
elimination of the small minority business assistance program, 
and so if we have priorities our budgets should reflect that. 
What I would love to hear is a commitment that small, rural, 
and disadvantaged communities that need the support and 
leadership can count on that kind of support and commitment and 
that we can see these dollars that were targeted for those 
areas actually go to those areas. Do I have that commitment?
    Mr. Wheeler. Yes. And the money for the assistance for 
small, disadvantaged communities of 45 million will be going 
out this summer, and again we believe under AWIA next year we 
can target those same communities.
    Ms. Blunt Rochester. Thank you and I yield back.
    Mr. Tonko. The gentlelady yields back. The Chair now 
recognizes the gentleman from the State of Ohio, Mr. Johnson, 
for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    And, Mr. Wheeler, thank you again for joining us today. A 
few years ago I helped to get language added to Section 8 of 
the Toxic Substances Control Act to create a negotiated 
rulemaking between EPA and regulated stakeholders to reduce 
duplicate reporting of unintended byproducts. Unfortunately, 
the legal and procedural venues were not conducive to producing 
a satisfactory result.
    I understand that the Agency is close to proposing a 
rulemaking under TSCA Section 8. Will that rulemaking make any 
effort to address duplicate reporting to the Agency?
    Mr. Wheeler. I believe it will, but I will have to get back 
to you with the details on----
    Mr. Johnson. OK, yes, could you please? I appreciate that. 
Thank you. In the last Congress, the subcommittee examined 
Clean Air Act provisions that could be updated to reflect what 
we have learned over 30 years such as the NSR program. We heard 
witnesses express concern that innovative technologies and 
systems to improve facilities are being left on the shelf, 
unfortunately, because of current NSR processes. We learned how 
the NSR program can make things like incremental pollution 
control improvements, carrying out energy efficiency upgrades 
and keeping facilities in good working order for safety and 
reliability purposes very, very challenging. I believe we also 
learned that we can accomplish most or all of the anticipated 
environmental benefits of the NSR at considerably reduced cost 
with creative reforms to this program.
    So, Administrator Wheeler, can you speak broadly about why 
updating the NSR program would be beneficial and what you are 
going to do or what you are doing to explore administrative 
changes to the program?
    Mr. Wheeler. Absolutely. First, to answer your second part, 
we have a number of guidance documents we have issued over the 
last year and a half from the Air Office on New Source Review 
including the once in always in guidance, and we are now 
working to put those into regulatory text and to offer public 
comment. Previously, NSR regularly discouraged companies from 
investing and deploying the cleanest and most efficient 
technologies. Through our NSR reforms we are providing clarity 
to permitting requirements, we are improving the overall 
process. We are also incentivizing investments in the latest 
energy technologies.
    So we are trying to modernize the NSR program to make sure 
that it is not a deterrent to pollution prevention going 
forward.
    Mr. Johnson. OK. Would reforms that make it easier to make 
decisions to upgrade equipment that led to reduced greenhouse 
gas emissions help our nation's climate policies, do you think?
    Mr. Wheeler. Yes, it would.
    Mr. Johnson. OK. What is the status of your proposed 
rulemaking to replace the Clean Power Plan and how does that 
proposal address New Source Review?
    Mr. Wheeler. In the proposal we had a section on New Source 
Review to allow companies to install the latest energy-
efficient equipment at their facilities and without having to 
trigger NSR which will get reductions faster. We are looking at 
whether or not to include that in the final regulation or that 
add as a separate NSR regulation, but in either, event we will 
either move forward with it together or separate, but we will 
move forward with both pieces.
    The ACE proposal, once it is fully implemented, will reduce 
CO2 emissions from the electric power sector by 34 percent 
which will go a long ways to meeting our CO2 goals for the 
country.
    Mr. Johnson. OK. Are there other initiatives you could 
pursue this year to provide greater certainty to facilities and 
will make the steps to upgrade without fear of triggering NSR?
    Mr. Wheeler. Yes, we have several. As I mentioned, we have 
several NSR regulatory rulemakings in the process. We have 
additional guidance documents that will be going out, but we 
are trying to modernize the NSR program which has kind of been 
stuck in 20 years and has not allowed for innovation for new 
pollution prevention control technologies.
    Mr. Johnson. OK. I have about 33 seconds left.
    Recently, the Agency released a multi-prong PFAS action 
plan. There are 4,000 PFAS chemicals and yet only 18 can be 
detected in water, and health effects are known about one-half 
of one percent of the substances. Can you talk just real 
briefly about the importance of getting the work right to 
understand how best to approach PFAS issues moving forward?
    Mr. Wheeler. Absolutely. You know, there are thousands of 
different PFAS chemicals. We have some of the best researchers 
in the world working on this in our research labs. The same 
control technologies can't be used for the different PFAS 
chemicals. Some of the long-chain compounds, the control 
technologies don't necessarily work for the short-chain, also 
the detections are different.
    Mr. Tonko. OK, the gentleman yields back. The Chair now 
recognizes the gentleman from Florida, Representative Soto, for 
5 minutes, please.
    Mr. Soto. Thank you, Mr. Chairman.
    Administrator Wheeler, is climate change real?
    Mr. Wheeler. Yes.
    Mr. Soto. And is it caused by human activity?
    Mr. Wheeler. Human activity certainly is a causing factor 
of climate change, yes.
    Mr. Soto. And is fossil fuels and other carbon emissions 
part of that human activity causing climate change?
    Mr. Wheeler. Yes.
    Mr. Soto. And there was a recent NOAA report, the Federal 
Climate Assessment, on November 23rd, 2018. Do you agree with 
the assessment of what could happen based upon climate change 
in that NOAA report?
    Mr. Wheeler. Well, the assessment at least in the press 
focused more on the worst-case scenario, which is the 8.5, RCP 
8.5, which that worst-case scenario is actually no longer being 
used by the U.N.'s IPCC, so I think the news reports at least 
of the assessment are slightly misleading. But the underlying 
science, I have been briefed by my staff a few times on it. I 
read the assessment when it came out and we are moving forward.
    As I mentioned a minute ago, our ACE proposal is going to 
reduce CO2. Our CAFE standards will also reduce CO2. So we are 
moving forward with the authorities that Congress has given us 
under the Clean Air Act to address CO2.
    Mr. Soto. Thank you. And we had some op-eds in my local 
district where local constituents of mine were concerned about 
stacking science advisory groups with industry folks and a 
reduction in monitoring and enforcement. Can you give us an 
idea of the number of cases brought in 2016 versus '17 and '18 
and what you are looking like this year as far as cases 
brought?
    Mr. Wheeler. Well, the cases do vary from year to year 
particularly on the fines. This year is going to be 
particularly large with the recent Fiat Chrysler enforcement 
action that we took in January. Our criminal cases last year 
were an uptick, the first time we had an increase in criminal 
cases since 2011. We also have an increase on the audit side, 
so we are trying to prevent the pollution from happening 
through the audits. But if it does happen, we are making sure 
that people realize we are going to be taking criminal cases if 
we need to, to make sure that people are compliant with the 
law.
    Mr. Soto. So there has been an uptick in criminal and 
audits, but a downtick overall with civil cases; is that fair 
to say?
    Mr. Wheeler. There was a slight downtick, I believe, in 
civil cases last year. You know, one of the things that we have 
been criticized is a downtick in the number of inspections. But 
as we delegate more programs to the States, the States have the 
primacy there and they conduct the majority of the inspections. 
And we are providing technical assistance through our criminal 
lab in Colorado to a number of States around the country to 
help them with their inspections to make sure that they are 
done properly.
    Mr. Soto. Thank you, Mr. Wheeler. And, you know, I come 
from the State of Florida. We have a big issue with the red 
tide and toxic algae blooms. We have had researchers say that 
the warmer weather may now be a key determinant of algae blooms 
in Lake Okeechobee. And scientists have found that over the 
last 25 years, Lake Okeechobee has continuously warmed and 
according to NOAA the, quote, ``harmful algae blooms in general 
expected to increase in a warming world thanks to warming sea 
surface temperatures,'' end quote.
    And then the director of Florida Sea Grant at the 
University of Florida said, I quote, ``at this time it is not 
clear if the ecosystem services provided by Lake Okeechobee can 
be protected if climate change in the future decades includes 
both increased temperatures and less rainfall.''
    Do you agree with those scientific assessments?
    Mr. Wheeler. I would have to look at those assessments 
specifically. I rather not give a general agreement without 
having read the actual assessments.
    Mr. Soto. Does the EPA generally agree that warming seas 
could exacerbate algae blooms?
    Mr. Wheeler. Yes. That is one of the factors exacerbating 
algae blooms. Also, nutrients are as well, and we are working 
on that through a number of innovative ways. We just released a 
new market-based mechanism program in February to try to help 
farmers on nutrient-loading----
    Mr. Soto. And would a reduction in emissions help combat 
climate change and potentially fix this potential damage in the 
future?
    Mr. Wheeler. If you are referring to reductions in CO2----
    Mr. Soto. Yes.
    Mr. Wheeler [continuing]. Yes, but it is on the margins. I 
think adaptation is very important. And why it is important, 
the President was down at Lake Okeechobee last week or the week 
before and committed to fully funding the program there for the 
dike. I think that is very important. We are working on the 
other side with the nutrient-loading and we have some of the 
best researchers in the world on the algae blooms at a number 
of our research facilities including RTP in North Carolina 
which is doing some groundbreaking research on how to better 
protect----
    Mr. Soto. Thank you, Mr. Wheeler. And we appreciate the 
President being there. We were concerned about the budget cuts, 
but obviously we will be working on those.
    Mr. Chairman, I would like to introduce a letter to the 
record from nearly a dozen public health groups declaring that 
climate change is, in fact, a health emergency for both algae 
blooms and Lake Okeechobee.
    Mr. Tonko. At the end of the hearing we will take up all 
the offers for submission to the record.
    Mr. Soto. Thank you.
    Mr. Tonko. But we are pleased to do that.
    The gentleman yields back and now the Chair recognizes the 
gentleman from Missouri, Representative Long, for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    And, Mr. Wheeler, 362 days ago, the President issued a memo 
to EPA directing the Administrator to take specific actions to 
ensure more efficient and cost-effective implementation of the 
Agency's National Air Quality Standards Program. The President 
requested more timely processing of State implementation plans. 
Can you give us an update and report card on yourself on that?
    Mr. Wheeler. Yes. We are moving forward to conduct the 5-
year review for both PM and ozone and conduct them both on 
time. It will be the first time the Agency has ever completed 
that. We have taken a number of steps to shorten the review 
period. The Clean Air Act directs us to review it every five 
years and we are on schedule to get it done in the 5-year 
period which is the end of 2020.
    Mr. Long. OK. The President also requested engagement with 
States on regional haze plans. How are you doing on that? Can 
you give us an update?
    Mr. Wheeler. I think we are doing very well on that. You 
know, the previous administration issued a record number of 
Federal implementation plans, most of them around the Regional 
Haze Program. In fact, they issued more FIPs than the previous 
four administrations combined. What we have done since March of 
2017 is, on average, turn one FIP into a SIP each month, and 
turn it from a Federal implementation to a State implementation 
plan.
    So we are working much closer with the States to make sure 
that they are moving forward, but we are working cooperatively 
and collaboratively with the States.
    Mr. Long. The President in that memo also requested more 
timely processing of pre-construction permit applications which 
has been a big issue. How are you doing there?
    Mr. Wheeler. Well, I think we are moving forward on that 
very well and again working closely with the States.
    Mr. Long. OK. In the past two Congresses we have been 
trying to enact reforms to air quality standards that help 
prevent areas from being unfairly penalized for emissions 
beyond their control. I am reminded of a hearing we had in here 
in the last Congress, when we had several folks in from 
California and they said that their cities were concerned; if 
you took every motorcycle, every big truck, every car, every 
everything off every train, everything off the highways, and 
rails of California, they could still not comply with the ozone 
standards.
    So the President asked in his memo that you respond more 
quickly to States' petitions for relief under exceptional 
events and international emissions provisions of the Clean Air 
Act. What are you doing to implement this directive?
    Mr. Wheeler. We are working more closely with the States. I 
think I mentioned in my opening statement that we moved 
Cleveland from a non-attainment to attainment last week for 
particulate matter. We have another one that we are announcing 
this week, I don't believe it is public yet, where we are going 
from non-attainment to attainment.
    We are trying to work with those communities and also 
working with them on the exceptional events and things outside 
their control such as forest fires or emissions from China. We 
know a lot more on modeling on where the emissions are coming 
from and a lot of the emissions that are impacting Western 
States, Colorado, for example, is coming from overseas.
    Mr. Long. And that continues to be a huge issue because if 
you have ever traveled to Beijing or several places in China, 
you can't see across the street.
    The President's memo also directed you to fully implement 
the Clean Air Act providing that require the Clean Air 
Scientific Advisory Committee to advise you on the adverse 
health or other effects that may result from implementation of 
revised air quality standards. In previous administrations, the 
legal requirement to look at other adverse impacts including 
welfare, social, economic, and energy effects was ignored by 
the EPA.
    Have you provided direction or a charge to the Scientific 
Advisory Committee to provide you with advice about other 
adverse impacts that may result from efforts to meet air 
quality standards?
    Mr. Wheeler. I have. We have asked them to provide advice 
on all the issues you just named.
    Mr. Long. And that is going fairly well?
    Mr. Wheeler. Yes.
    Mr. Long. OK. Will you provide for the record an update on 
each item in the President's memo that again 362 days ago when 
it came out and how EPA is addressing those directives?
    Mr. Wheeler. Yes, happy to, sir.
    Mr. Long. OK, thank you.
    And, Mr. Chairman, I yield back.
    Mr. Tonko. The gentleman yields back. The Chair now 
recognizes the gentlelady from the State of California, 
Representative Barragan, for 5 minutes.
    Ms. Barragan. Thank you.
    Mr. Wheeler, I want to ask you about the drinking water 
infrastructure portion of the budget. My understanding is that 
EPA is requesting approximately $300 million less than the 
fiscal year 2019 amounts were enacted; is that correct?
    Mr. Wheeler. Yes. That is correct.
    Ms. Barragan. Have you ever gone to a community and been 
served brown water to drink?
    Mr. Wheeler. Brown water to drink? Yes, probably in parts 
of--no offense, sir, but probably parts of West Virginia over 
the years.
    Ms. Barragan. And have you drank that brown water?
    Mr. Wheeler. No.
    Ms. Barragan. Is there a reason why you haven't drank that 
brown water?
    Mr. Wheeler. I wasn't sure of the safety of it. As I said 
in my opening statement though, 92 percent of the water systems 
in the country today meet EPA standards every single day.
    Ms. Barragan. Well, do you know that brown water in some 
communities are deemed to be safe, yet it is still brown, yet 
children get--they are straight-out concerned about the brown 
water. They are afraid of the water. They don't want to drink 
the water, it tastes bad. Have you heard of these reports 
before?
    Mr. Wheeler. Not specifically. But when we hear those 
reports we work with the communities to make sure that the 
water is, in fact, safe.
    Ms. Barragan. Well, let me tell you----
    Mr. Wheeler. We work with States and local communities to 
test the water.
    Ms. Barragan. I appreciate that.
    Mr. Wheeler. Everyone regardless of their ZIP Code deserves 
safe drinking water.
    Ms. Barragan. I want to share with you what happened in my 
congressional district. In Compton, California, the water was 
coming out brown from the faucets. It was tested and my 
constituents were told that the water was OK to drink, that it 
was completely safe. And I guarantee you that nobody, none of 
the elected officials in my district wanted to drink that 
water.
    And, Mr. Wheeler, if you were served that water you 
wouldn't want to drink it either. This is where there is a huge 
disparity in environmental justice. In black and brown 
communities in particular and low-income communities across the 
country are being told it is OK, that they have to drink brown 
water even though it tastes terrible, and even though children 
are afraid of it, and even though when they bathe with this 
water they develop rash and they have other health impacts like 
an upset stomach. And it is completely unacceptable that 
anybody would have to drink brown water.
    And so I invite you to go to some of those communities to 
see the water. If you think it is safe like it is tested, drink 
it. Show the community that if it is good enough for them it 
should be good enough for you as well. And I see this cut by 
$300 million and it concerns me, and this is exactly why we are 
not having infrastructure projects for safe drinking water, and 
what I would call clean water for our constituents. And so, I 
would ask you to visit these communities and I would invite you 
to some of them.
    I want to move on to another topic. My district also 
includes the Port of Los Angeles. Now it is one of the busiest 
shipping facilities in the country. Heavy-duty trains and 
trucks carry cargo back and forth between the port and major 
rail yards. Diesel exhaust from rail traffic is a significant 
source of air pollution including particulate matter. Diesel 
exhaust is linked to higher deaths and higher incidences of 
asthma, cancer, stroke, heart attack, and premature deaths.
    My constituents have to breathe this polluted air. These 
are low-income communities of color that live, work, and go to 
school near the port and the rail corridors. They 
disproportionately bear the burden of this pollution. What are 
you doing to help these communities by reducing air pollution 
from locomotives and other rail facilities?
    Mr. Wheeler. Well, we are working with the State of 
California. When I was in private practice I actually 
represented the South Coast Air Quality District, so I am very 
familiar with the issues around the port. We are working 
through our Region 9 office out of San Francisco to help reduce 
the pollution of those areas. We have a number of grant 
programs that help areas like that.
    And we also, in addition to the locomotives issue we also 
have the heavy-duty diesel truck issue as well. And we 
announced this year that we are going to reduce NOx from the 
heavy-duty trucks even though it is not required by statute or 
by law.
    Ms. Barragan. I want to focus on rails, sir. I appreciate 
you wanting to tell me about the truck program, but could you 
maybe tell me on the rail program what you all are doing?
    Mr. Wheeler. I will have to get back to you, specifics on 
the rail program. I don't want to give you wrong data.
    Ms. Barragan. Well, will you commit to bringing EPA's 
regulatory power and ability to drive market incentives to bear 
to move the rail industry toward zero emissions technologies?
    Mr. Wheeler. We are working with the rail industry and we 
are trying to reduce the pollution across the board.
    Ms. Barragan. So you won't commit. OK, thank you. I yield 
back.
    Mr. Tonko. The gentlelady yields back. The Chair now 
recognizes the gentleman from the State of Texas, 
Representative Flores, for 5 minutes, please.
    Mr. Flores. Thank you, Chairman Tonko and Leader Shimkus, 
for today's meeting. Administrator Wheeler, thank you for being 
here.
    I would like to comment before I get into my questions 
about a quote from Chairman Pallone a few minutes ago. It says 
``that a budget is an expression of priorities.'' I would like 
to remind everyone in the audience today that the Democratic 
House majority has recently said that they don't intend to put 
forward a budget, so I think the American people are rightly 
curious about what the Democratic House priorities are.
    Administrator Wheeler, in response to the design flaws of 
the RFS the way it is today, the statutory design flaws as well 
as the pending expiration of the RFS in 2022, Leader Shimkus 
and I put together a proposed piece of legislation that was 
based on input from the brightest minds and engineers not only 
in the vehicle space, but also in the renewable fuel space, 
refining community, those in the retail community for vehicle 
fuels. And it was done so that it proposed a high-octane 
standard so that we could get the most desirable level of 
efficiency and emissions in one solution.
    Do you have views on the effectiveness of that approach of 
having an integrated solution for fuels and vehicles in one 
piece of statutory legislation?
    Mr. Wheeler. Well, as far as a nationwide octane standard, 
we don't believe we have the authority to create one absent 
congressional authorization.
    Mr. Flores. That was actually my next question, so.
    Mr. Wheeler. I am doing them in reverse.
    Mr. Flores. OK. So you are saying the EPA doesn't have the 
authority. What do you think about that type of solution in 
terms of having a statutory solution in order to address 
emissions and efficiency to combined vehicle design and fuel 
performance specifications?
    Mr. Wheeler. I can't at this point give you specific 
administration approval, you know, acceptance or acquiescence 
on congressional legislation without going through the OMB 
process. In general terms, I do think we need to be creative in 
how we look at the next generation of the RFS post-2022, and I 
think everything should be on the table. And I think the 
program does need to be modernized with the way that we have 
seen the data develop over the last 10 years.
    Mr. Flores. OK. That is what Mr. Shimkus and I were 
attempting to do is to be creative and to think outside the 
box. But we did it with having the brightest minds and 
engineers working on this from all parts of the space including 
the environmental community.
    I want to follow up on Mr. Shimkus' questions regarding 
vehicles and fuels. Some folks in Washington would like to see 
a heavy reliance on electrical vehicles in the future. I think 
that makes some sense. However, there are some issues that we 
need to be concerned about in doing that, particularly the 
environmental impact of lithium batteries. Is the EPA studying 
the impact of a much higher use of electric vehicles in terms 
of environmental impact of lithium batteries?
    Mr. Wheeler. I am not aware of specifically the greater use 
of lithium batteries. We are not approaching the automotive 
industry as social engineering as I believe the previous 
administration did. The Obama CAFE standards would have 
required 30 percent electric vehicles in order to comply with 
these standards by 2025. We are looking at what the American 
public is buying and trying to set standards regardless of the 
type of automobile.
    So we are not doing social engineering, but there are 
certainly issues, environmental issues around all choices 
including electric vehicles and lithium batteries. But every 
form of energy has environmental tradeoffs and oftentimes those 
are not recognized by proponents of one form of energy over 
another.
    Mr. Flores. Well, I appreciate your comments. I would 
encourage the EPA to keep an eye on that. As electric vehicles 
come into more common usage there is going to be an 
environmental impact from lithium batteries, so I would 
encourage you to keep that in mind.
    I am going to run out of time before you get a chance to 
answer this question, so I am going to ask you if you would 
supplementally respond. In terms of the RVO reset that you are 
working on today, I would like to know if the EPA is looking 
into any sort of EV RINs, if they are looking at the impact of 
higher ethanol on RIN prices and gas prices, the impact on 
legacy vehicles, and the impact on storage facilities and 
retail pumps. So if you would supplementally respond that would 
be great.
    Mr. Wheeler. I would be happy to submit that for the 
record.
    Mr. Tonko. And the gentleman yields back. The Chair now 
recognizes the gentlelady from the State of Colorado, 
Representative DeGette, 5 minutes, please.
    Ms. DeGette. Thank you so much, Mr. Chairman.
    Administrator Wheeler, I just want to make one point with 
respect to the statement you made about the pollution in 
Colorado, the air pollution coming from Asia. And you are 
right, some of that seems to be coming from other places. But 
our former colleague and now Governor Jared Polis has announced 
that he is not going to seek an exemption for that because 
irrespective of the source, the fact is that the air pollution 
is still harming Coloradoans. And so we need to do everything 
we can, not just in Colorado but around the country. We need to 
help work with these other countries to minimize their sources, 
but we also need to work on it here because it makes our people 
sick no matter where it comes from.
    I want to follow up on some of the questions that my 
colleague was asking about environmental justice because I 
represent an urban area, as you know. Are you familiar with the 
EPA's EJ 2020 Action Agenda which is on the EPA's website?
    Mr. Wheeler. Yes, I am.
    Ms. DeGette. And has the current administration adopted 
this Action Agenda?
    Mr. Wheeler. I would have to get back to you on the 
specifics of the answer.
    Ms. DeGette. You don't know whether you have adopted it?
    Mr. Wheeler. We elevated environmental justice to the 
Administrator's Office----
    Ms. DeGette. Right.
    Mr. Wheeler [continuing]. To give greater emphasis on 
environmental justice. And to go back to a comment----
    Ms. DeGette. But so the Action Agenda is on your website 
right now.
    Mr. Wheeler. Yes. I believe we are implementing all of it.
    Ms. DeGette. So if you would get back to me and let me know 
if you support it.
    Mr. Wheeler. Absolutely.
    Ms. DeGette. One of the things that the Action Agenda has 
done is it asked the EPA to identify, quote, ``100 of the most 
overburdened communities where data indicate that facilities 
present a high likelihood of serious noncompliance issues 
impacting those communities and address serious violations, if 
found.'' Are you familiar with that provision?
    Mr. Wheeler. Not specifically that provision. That is why I 
would like to get back to you on those.
    Ms. DeGette. Do you know if the EPA has identified the 100 
most overburdened communities?
    Mr. Wheeler. We are in the process of identifying 
communities around the country that are under the new economic 
development process, where I think there is overlap between 
that list and the EJ list.
    Ms. DeGette. OK, so when do you think you will have that 
done?
    Mr. Wheeler. I am not sure. I have to get back to you on 
that.
    Ms. DeGette. One month, six months, a year?
    Mr. Wheeler. I would have to get back to you on that.
    Ms. DeGette. Well, I would appreciate if you would get back 
to me, because you do have some communities in my district--
Swansea, Elyria, and Globeville--that warrant specific 
attention and have for years, so this is of great urgency. It 
sounds like the administration realizes this is of great 
urgency; is that right?
    Mr. Wheeler. Yes. In my first week on the job as the Deputy 
Administrator I sat down with our Environmental Justice Office 
to talk to them about what they are working on.
    Ms. DeGette. Well, that is wonderful, but we need to know 
which communities you are targeting.
    Mr. Wheeler. Right.
    Ms. DeGette. Thank you. Now actually the fact that you keep 
saying you are going to get back to me leads me to another set 
of issues that I have. You probably know I am the chair of the 
Oversight and Investigations Subcommittee of this committee, 
and one of the things that we are looking at in my committee is 
what the EPA is doing which could undermine actions against 
mercury, which is a toxic chemical emitted from coal-fired 
plants, which can lead to brain and nervous system damage in 
young children.
    So do you know how many electric generating facilities 
nationwide have installed pollution controls to limit mercury 
emissions under the current mercury rule?
    Mr. Wheeler. I don't have the number off the top of my 
head, but that rule has been fully implemented at this point.
    Ms. DeGette. So does the EPA----
    Mr. Wheeler. We are not rolling back anything on the 
mercury proposal.
    Ms. DeGette. OK. Does the EPA have the number?
    Mr. Wheeler. Yes. I am sure we have the number, I don't 
have the number off the top of my head.
    Ms. DeGette. Can you get that number to me?
    Mr. Wheeler. But that regulation has been fully implemented 
and we are not rolling that back.
    Ms. DeGette. OK. OK, great. Do you have the number?
    Mr. Wheeler. I will get you the number. I don't have the 
number off the top of my head.
    Ms. DeGette. Thank you. And do you know how many facilities 
requested an extension for complying with Federal mercury 
standards?
    Mr. Wheeler. And I believe all the facilities are currently 
in compliance with that standard.
    Ms. DeGette. OK, so you are not aware of any that have 
requested an extension?
    Mr. Wheeler. Off the top of my head, no, I am not.
    Ms. DeGette. OK. Now, so I and other members of the 
committee sent your Agency several requests for documents 
specifically relating to the last two questions I asked you and 
we have not gotten any documents back, and so I am glad that 
you are saying you are going to get me information today. I am 
glad you are saying you are willing to work with the committee.
    But we have not gotten these documents, so I just want to 
ask you, do I have a commitment from you that we are going to 
get responsive documents to the requests that we are making?
    Mr. Wheeler. Absolutely, Congresswoman.
    Ms. DeGette. OK.
    Mr. Wheeler. We have received seven letters from this 
committee. We have provided substantive responses to six of 
those letters, and the seventh one should be with you all in 
the next few days.
    Ms. DeGette. OK. Well, we----
    Mr. Wheeler. We have provided over 4,000 pages of documents 
to this committee already this year.
    Ms. DeGette. We have a whole bunch of pages of documents.
    Mr. Wheeler. Yes.
    Ms. DeGette. A lot of them have a lot of redactions, sir. 
But they don't relate to the specific requests that we are 
making.
    Mr. Wheeler. OK.
    Ms. DeGette. So I would just ask if you can go back and 
work with your staff to look at the specific requests that we 
are making and try to be responsive to those.
    Mr. Tonko. The gentlelady yields back.
    Ms. DeGette. Thank you very much.
    Mr. Tonko. And the Chair now recognizes the gentlelady from 
California, Representative Matsui, for 5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman. And thank you very 
much, Administrator Wheeler, for coming here today.
    I have several questions about the proposed rollback of 
fuel economy and air pollution standards for light-duty trucks 
and cars. Now this proposed action is a perfect example of how 
EPA prioritizes boosting industries like oil industry over 
public health and safety. Last year, EPA announced a proposal 
to replace the Obama-era standards with a watered-down rule 
that would result in increased air pollution and less efficient 
cars on our roads, harming Americans' public health, American 
jobs, and the economy.
    As you know, California is uniquely situated. It has some 
of the worst air quality in the country. It also has a unique 
authority under the Clean Air Act to regulate pollution from 
cars to try to meet Federal clean air standards and improve 
public health. Let me ask you first, have you completed the 
rulemaking? Is a final rule ready for publication?
    Mr. Wheeler. It has not been completed yet, no.
    Ms. Matsui. OK. Then why did you tell the Washington 
Examiner last month that you have already decided to revoke 
California's waiver?
    Mr. Wheeler. At this point we are moving forward to revoke 
the waiver, yes, but the rulemaking is not completed.
    Ms. Matsui. OK. You said, and I quote, ``to have a 50-State 
solution we have to take care of the waiver,'' end quote. 
Putting aside for a moment that this is wrong, are you not 
bound by administrative law to consider all evidence and 
comments submitted before making a final decision?
    Mr. Wheeler. We are and we are working through all those 
comments, yes.
    Ms. Matsui. OK. I would like to also discuss the fact that 
you publicly announced that you would not further negotiate 
with California. In the same interview with the Washington 
Examiner, you said EPA made a proposal to California. What 
exactly did you propose?
    Mr. Wheeler. That was our proposal that we released last 
summer was our CAFE proposal. And I was told--I met with Mary 
Nichols three times. She said that she would get us a counter 
within 1 to 2 weeks. We waited over 3 months----
    Ms. Matsui. My understanding is that----
    Mr. Wheeler [continuing]. Before we got a response from 
California.
    Ms. Matsui [continuing]. The back-and-forth was really not 
a back-and-forth at all. I mean it was nothing that was 
different than was proposed earlier.
    Mr. Wheeler. That was our proposal, Congresswoman.
    Ms. Matsui. Well, it didn't go anywhere with us.
    Mr. Wheeler. We never got a real counterproposal from the 
State of California.
    Ms. Matsui. It was the same proposal that you kept moving 
forward and you weren't listening to our proposal. Now, 
Administrator Wheeler, if you actually engaged in good faith 
negotiations with California automakers, with the automobile 
manufacturers, you could achieve a 50-State solution through a 
negotiated agreement. And the fact is even though you dispute 
this, you really never tried.
    I want to turn attention to the climate crisis. Last week 
at the DC Auto Show when asked about the carbon impacts of your 
SAFE proposal, you said that your proposed rule as compared to 
the Obama standards gets about the same amount of C02 benefit. 
In fact, your staff gave a presentation in September 2018 to 
the Clean Air Act Advisory Committee that explained that your 
proposal would increase carbon pollution by 3.8 billion tons 
through 2050.
    And the draft environmental impact statement for the 
proposed rule concluded that your recommended standards would 
increase carbon pollution by over seven billion tons throughout 
the end of the century. That is more than the total annual 
carbon pollution across the entire United States. Administrator 
Wheeler, either you are wrong, or your staff and the draft 
environmental impact statement are wrong. What do you think it 
is?
    Mr. Wheeler. I have been told by my staff that the C02 
reductions, the impact of the C02 reductions are pretty similar 
to what the Obama administration would have received under 
their--would have gotten under their proposal.
    Ms. Matsui. Well, that is not exactly what the----
    Mr. Wheeler. Because the Obama proposal, I had a number of 
exemptions and off-ramps and the car automobile manufacturers 
aren't complying with the Obama standards today.
    Ms. Matsui. Well.
    Mr. Wheeler. Only three companies today are able to comply 
with this year's standards.
    Ms. Matsui. Well, I still believe that this is not--it 
sounds awfully confusing to me.
    Mr. Wheeler. We have to take that into account too.
    Ms. Matsui. It sounds awfully confusing to me.
    Another issue that we would like to bring up is that there 
is no dispute that EPA used the OMEGA model in the rulemaking 
process to roll back fuel economy standards. EPA has refused to 
release the model. Will you commit to releasing the latest 
version of the model, yes or no?
    Mr. Wheeler. We did not use the OMEGA model for the 
proposal. We have been working with the OMEGA model. The last 
version of the OMEGA model that was finished in 2016 was 
released publicly, but we do not release models while we are in 
the middle of a rulemaking process. No.
    Ms. Matsui. Not at all. We would like a little more 
transparency here.
     Mr. Wheeler. Not during a rulemaking process.
    Ms. Matsui. OK. Now you may pretend that climate change is 
not an imminent threat, but Americans across this country are 
reeling from natural disasters that climate change is 
exacerbating, and it is only getting worse. We urgently need to 
reduce carbon pollution not recklessly boost it, and with that 
I yield back.
    Mr. Tonko. The gentlelady yields back. The Chair now 
recognizes the gentleman from California, Representative 
McNerney, for 5 minutes, please.
    Mr. McNerney. I thank the chairman and I thank you, Mr. 
Administrator, for testifying this morning.
    Mr. Wheeler. Thank you.
    Mr. McNerney. My district, California's 9th, is located at 
the northern end of the San Joaquin Valley and it is home to 
one of the nation's worst air quality which routinely fails to 
meet the Federal standards for ozone and particulate pollution. 
That is why I was disheartened but not surprised by the budget 
request. Part of your Agency's mission is to protect the 
quality, the air quality, yet your fiscal year 2020 budget 
proposes a 46 percent cut in funding for that purpose. Notably, 
the proposed cuts and categorical grants include a 35 percent 
cut in funding for air and radiation primarily to support 
State, local, and tribal air quality management programs.
    So how can the EPA tout principles of cooperative 
federalism and simultaneously undermine these principles by not 
providing nearly enough resources for States to conduct their 
own air quality programs?
    Mr. Wheeler. We believe the resources we have requested 
through the budget will allow us to return the Agency to its 
core mission of protecting public health and the environment; 
and we have a number of different tools where we can help the 
States and local governments meet the standards.
    Mr. McNerney. I think you will find there is pretty 
universal disagreement with that assessment, Administrator.
    PFAS are also of pressing concern in my district and 
nationwide. I had good hopes for your PFAS Action Plan, but now 
we see that it fails to address these exposures and the 
concerns of the American public. The plan does not deliver 
drinking water standards, Superfund cleanup requirements, waste 
limits, water discharge limits, air emission limits, or even 
report on releases. We need real action to address PFAS in our 
drinking water, our soil, and our air.
    I want to focus though on-air releases because I don't 
think they have gotten the attention they need. I was pleased 
when David Ross, your assistant administrator for the Office of 
Water, recently told Congress that the Agency was investing in 
stack emissions research related to PFAS, but I don't see that 
or other key emission testing research in your budget. Will you 
commit, Mr. Wheeler, to fully funding the Office of Research 
and Development air emissions testing and methods for 
development of PFAS, will you make that commitment?
    Mr. Wheeler. We have not cut the research for PFAS/PFOA. We 
have a lot of research going on in a number of our labs around 
the country. It is a high priority and we are moving forward 
with a lot of research. We are looking at both identifying the 
chemicals, trying to identify the human consequences from the 
different versions of the PFAS/PFOA. There are several thousand 
different chemicals in this family of chemicals and we are 
looking at the different clean-up technologies. So we are doing 
groundbreaking research by our EPA career employees at a number 
of our facilities in looking at the entire lifecycle of the 
PFAS/PFOA.
    Mr. McNerney. OK, that sounds good. But evidence is coming 
in showing that air emissions of PFAS end up in our water, so 
we can't ignore this pollution source either. Emerging 
contaminants such as PFAS demand more investment in science, 
not the kind of cuts that we are seeing in your proposed 
budget.
    Linda Birnbaum, the director of the National Institute of 
Environmental Health Sciences, recently testified that the 
Institute's research on toxicity of PFAS chemicals, it is 
essential that EPA make use of this research in doing what it 
does to address PFAS. Will you commit to using the research of 
the National Institute of Environmental Health Sciences has 
done on PFAS chemicals and ensuring that the regulatory actions 
you take on PFAS are consistent to address the hazards that the 
Agency has identified?
    Mr. Wheeler. Absolutely. We are working with all of our 
Federal partners on this. And as I said earlier, this is the 
most comprehensive multimedia action plan this Agency has ever 
developed for an emerging chemical of concern like this.
    Mr. McNerney. But when you use words like ``ever,'' that is 
ever developed----
    Mr. Wheeler. Forty nine years.
    Mr. McNerney [continuing]. And you propose huge cuts, 35-40 
percent cuts, how can that be consistent?
    Mr. Wheeler. We have not cut our research on PFAS/PFOA and 
we are moving forward on a number of regulatory fronts, plus we 
are already enforcing our 70 parts per trillion standard at 
eight different sites around the country, and we have assisted 
States in 20, over two dozen enforcement actions around the 
country as well. So we are moving forward to clean it up where 
we find it. We are using groundbreaking GIS modeling to 
determine where the problems are.
    Mr. McNerney. Well, I mean, we will have to see if that is 
consistent with what your testimony says.
    Mr. Wheeler. Absolutely.
    Mr. McNerney. Pat Breysse, the director of the Agency for 
Toxic Substance Disease Registry, also recently testified of 
the important work his Agency is doing to identify hazards from 
PFAS. Will you commit to ensuring that all regulatory actions 
you take on PFAS are sufficient to address the hazards that 
that Agency has identified?
    Mr. Wheeler. Yes. Their number is very different than ours. 
But yes, we are working closely with ATSDR.
    Mr. McNerney. All right, I yield back.
    Mr. Tonko. The gentleman yields back. The Chair recognizes 
the gentlelady from Michigan, Representative Dingell, for 5 
minutes, please.
    Mrs. Dingell. Thank you, Mr. Chairman.
    I want to find peace, Mr. Wheeler. The issue of fuel 
economy standards is one that is very complex, and I know you 
are well-versed in its history and its intricacies just like I 
am. But I am at a loss, and I am not trying to be hostile. I 
care about the auto industry, it is still the backbone of the 
American economy and I am at a loss when it comes to reaching a 
consensus between everyone.
    I know there was a meeting in the Oval Office. I know the 
President asked EPA and NHTSA to work with all the stakeholders 
and try to come up with one standard. And it matters. This is 
an industry that is far more fragile, you probably do 
understand how fragile it is, than many people realize. And 
even as we were having a discussion, I keep saying to my 
colleagues, here, when those Obama standards were set there was 
an assumption that there would be 30 percent electric vehicles.
    And we have a lot of problems and it doesn't help when the 
President takes shots at EVs, EVs need to be part of that 
equation. And we are competing in a global marketplace where 
you have countries, and I think we want to be competitive in 
the global marketplace, China is telling everybody they have to 
go with those EVs. And I called Mary Nichols myself right 
before she left, I think she is just about back, and said, ``Am 
I going on a Don Quixote mission or are you willing to go to 
the table and sit down?''
    Everybody needs this. Everybody wants it, the 
environmentalists, the autos. You say you are working. Mary is 
willing to go back to the table. Can we go to the table and get 
one national standard that will keep a strong competitive auto 
industry?
    Mr. Wheeler. I would love to have a one standard, 50-State 
solution to this. You know, when Mary Nichols gave us her 
counterproposal after three months, she said at the time that, 
you know, although she was the director of the California 
Resources Board that the board members had not signed off on 
it. She said that the incoming governor had not signed off on 
it. The outgoing governor had not signed off on it. And the 
attorney general who threatened to sue us at the time had not 
signed off on it, and he has already sued us.
    There are a lot of politics going on in California over 
this issue. I would love to have a 50-State solution on this.
    Mrs. Dingell. So I understand those politics. But I also 
understand, you know, I am not old, but I am seasoned, and I 
know how tough these issues are, and if we can get everybody 
back at that table, we need to do it. This industry cannot 
afford to have two separate standards. We want to stay at the 
forefront of innovation and technology. That means money needs 
to be going into R&D, not a court battle that is going to go 
forever that is going to give this industry uncertainty.
    So could I get a commitment from you? Can we try to go back 
to that table? Mary should be back right about now. Can we do 
that?
    Mr. Wheeler. We are always open to hearing from California 
on this, but to be frank they did not come forward with a 
credible offer last fall. We were asking them for weeks, ``What 
is it that you want?'' And I think it is important to note that 
when we are talking about the California waiver we are not 
talking about the health-based standards. We are only talking 
about the energy efficiency standard.
    Mrs. Dingell. Well, you know, I mean the environmental 
advocates and the auto industry are OK with the continuation of 
the California waiver. Who do you think we are helping by 
taking it away?
    Mr. Wheeler. If we end up having two different standards 
for the entire country, it is going to create problems across 
the board.
    Mrs. Dingell. Chaos.
    Mr. Wheeler. Chaos, it will. In our proposal California 
only looked at energy efficiency. Our proposal looks at energy 
efficiency as well as public safety and under our proposal we 
estimate 15,000 lives saved. California is only looking at this 
with one goal in mind and that is energy efficiency and CO2. We 
are looking at it much broader than that including public 
safety and using real data as far as what American consumers 
are purchasing today.
    Mrs. Dingell. So I want to continue this, and I am 
committed because this industry, and this economy, and this 
country depends on this.
    So having said that, I need to ask you one other question 
because I have 49 seconds left. We have had an EPA lab that 
started out in 1920 as part of the military, then it went to 
the Public Health Department, and then it has been yours since 
EPA was founded. It is on Grosse Ile. It is critical for many 
things in Michigan, the Great Lakes. A couple of years ago you 
threatened to close the Ann Arbor lab, the Administrator kept 
that open and environmentalists, auto industry, everybody said 
that was critical.
    Can you take another look at not closing this Grosse Ile 
EPA Office, which I have people in my office every day telling 
me how critical it is to the Great Lakes, emergency cleanups, 
et cetera? I know you were ready for that question.
    Mr. Wheeler. I would certainly take another look at it, but 
we are trying to consolidate. The Ann Arbor facility is very 
important. I have been to Ann Arbor twice now to visit that 
facility. It is very important.
    Mrs. Dingell. It is important.
    Mr. Wheeler. But we have facilities in almost every State, 
I think 40 States, and we need to be reducing our footprint. 
Congress, if the appropriations isn't directed----
    Mr. Tonko. We need to move on to the next----
    Mr. Wheeler. And we are trying to consolidate.
    Mrs. Dingell. Can we keep talking after this? Thank you.
    Mr. Tonko. OK, thank you. The gentlelady yields back. We 
now recognize the gentleman from California, Dr. Ruiz, for 5 
minutes, please.
    Mr. Ruiz. Thank you, Administrator Wheeler, for being here 
today. I want to talk to you about a serious threat to the 
public's health that affects potentially millions of Southern 
Californians from Riverside County all the way to LA County and 
Imperial County. The Salton Sea is California's largest inland 
body of water and it is shrinking. The exposed playa has very 
fine dust, particulate matter that is contaminated with 
agricultural runoff and other toxins, that if they get into the 
air it can easily penetrate the lung-blood barrier. I am a 
doctor so I can follow the path.
    And such exposure is associated with premature death as 
well as asthma attacks, chronic bronchitis, decreased lung 
function, and respiratory disease. All of this leads to 
increased hospitalization, emergency room trips, and doctor 
visits. In fact, the surrounding community already had the 
highest pediatric asthma hospitalization rate in the entire 
State of California. So this pollution, in fact, 
disproportionately affects the most vulnerable among us, 
infants, children, seniors, and low-income families. So fine 
particle pollution is harmful to human health even at very low 
concentrations.
    And it makes sense. We don't want chemically contaminated 
dust, or particles, or any dust in our blood. The scientific 
consensus recognized by hundreds of peer review articles and by 
EPA administrators during both Republican and Democratic 
administration says that fine particle pollution is a so-called 
non-threshold pollutant. That means that any level of fine 
particle pollution exposure can cause harm.
    At our December 2017 hearing, then Administrator Pruitt 
agreed that fine particle pollution was a no-threshold 
pollutant. Administrator Wheeler, do you agree that fine 
particle pollution is a non-threshold pollutant?
    Mr. Wheeler. I believe most of the science directs us that 
way, yes----
    Mr. Ruiz. So yes, good. Will the EPA officially acknowledge 
that the presence of fine particulate matter at any threshold 
is a public health hazard?
    Mr. Wheeler. We are currently in the middle of our NAAQS 
review for PM. It is scheduled to be completed by the end of 
2020. CASAC is currently reviewing the PM science that the 
Agency supplied, and we expect to have a report back from 
CASAC, so I would like to defer until I----
    Mr. Ruiz. Well, you just said that any amount of particle 
matter and dust especially those with chemicals that gets into 
our blood is harmful to our health.
    Mr. Wheeler. I believe there is still science as far as 
what is the composition of the particles, whether or not 
certain compositions have a better----
    Mr. Ruiz. Well, I will tell you that composition of any 
particle that is small enough to enter the alveolar blood 
barrier is harmful to your health. There is no foreign body 
that is in our blood that is helpful to our human health.
    Mr. Wheeler. I will defer to you on the medicine, but it is 
my understanding that----
    Mr. Ruiz. So, listen, when you consider this, no----
    Mr. Wheeler [continuing]. Composition of the PM is 
important.
    Mr. Ruiz. Yes. Know that any foreign body in your blood 
regardless of the composition----
    Mr. Wheeler. I understand that, but some is worse than 
others.
    Mr. Ruiz [continuing]. If it can get into your blood system 
it is bad for your health. You know that.
    Mr. Wheeler. Yes.
    Mr. Ruiz. The Clean Power Plan rule includes a policy that 
particulate matter is a non-threshold pollutant, yet the EPA is 
in the process of repealing that rule. So consider that rule 
when, and that part of that rule when, you look at this science 
as well. So by----
    Mr. Wheeler. The Supreme Court stayed that rule.
    Mr. Ruiz. Good. Excellent. By repealing the Clean Power 
Plan, the EPA could potentially for the first time say that any 
level is safe, so I am glad that the Supreme Court in fact 
agrees with us.
    So let me move on to another issue. And part of the reason 
that fine particulate matter from the Salton Sea lake bed is so 
dangerous is because, the sea is partially fed by agricultural 
runoff and from sources like the New River, one of the 
dirtiest, most polluted rivers in the country. It contains 
toxins, wastes, and parts from animal products, and chemical 
runoff from companies and carcinogens like DDT.
    My office was recently contacted by constituents who work 
as CBP officers stationed at Riverside, Imperial County, who 
have suffered from respiratory illnesses, skin rashes, 
symptomatic exposure of toxins, and harmful chemicals. Some 
have been diagnosed with chemicals. Many came concerned about 
their future, their health. A childhood friend of mine, Hector 
Acosta, also concerned about what would happen with him. Will 
he come down with cancer as well?
    They recently wrote a letter requesting your support for an 
epidemiological study. Will you commit to working with CBP to 
study the potential hazards of exposure to the New River, 
including conducting an epidemiological study to ensure that 
our public safety officers and their families are protected?
    Mr. Wheeler. We will have to look into that. I am not sure 
if that is in EPA or in ATSDR, but we will certainly help you 
with----
    Mr. Ruiz. Great, so will you provide me an answer by June 
1st?
    Mr. Wheeler. Yes.
    Mr. Ruiz. Great. And before I close, I want to submit this 
GAO study that I recently asked GAO to do regarding EPA's 
meaningful consultation with tribes regarding Superfund 
consultation and management. They gave you a set of 
recommendations. I would like you to take a look at them and 
see if you can respond to those recommendations. I would like 
to submit this for the record.
    Mr. Tonko. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Tonko. OK, we will--thank you. The gentleman yields 
back. The Chair now recognizes the vice chair of the full 
committee, the Representative from New York, Representative 
Yvette Clarke.
    Ms. Clarke. Good morning, Mr. Chairman, Ranking Member, and 
Administrator Wheeler.
    I have some very serious concerns about the EPA's being run 
by former lobbyists setting the rules for former clients. Your 
calendars reveal that since joining the Agency you have 
frequently met with companies you have once represented. I want 
to be clear, I am concerned about the ethical and possible 
conflicts of interest because the mission of the EPA is so 
important to the health and safety of my constituents and the 
public nationwide.
    EPA plays an essential role in safeguarding us and the 
Agency should not be for sale. Let me focus on just one 
example, the EPA's Risk Management Planning Program, the so-
called or also called RPM, excuse me, RMP. The RMP program 
offers important protections for workers, first responders, and 
the communities around high-risk chemical facilities.
    Mr. Wheeler, it is my understanding that you are pursuing 
rulemaking to weaken the RMP program at the urging of industry. 
But so long as the requirements are on the books, will you 
commit to aggressively enforcing them?
    Mr. Wheeler. First of all Congresswoman, yes, absolutely. 
But we are not moving to weaken the RMP program at all; and I 
don't know what you are referring to in meeting with former 
clients. I have not met with any of my former clients under my 
recusal statements, and I have followed the career advice of 
the EPA ethics officials, and I am really not sure what you are 
referring to on that.
    Ms. Clarke. Well, let me--I am not going to get into a 
back-and-forth. That is something we can discuss. I have a 
short amount of time.
    Mr. Wheeler. But that goes to my personal integrity, so I 
want to make sure.
    Ms. Clarke. I got you. We will follow up with you on that. 
More than 9.1 million people live in the vulnerability zones of 
RMP facilities in my home State of New York, meaning more than 
half of the State's population is at risk from accidents of 
those facilities. That is why the Attorney General of New York 
State recently led a coalition of 12 State attorneys general 
opposing EPA's proposed rollback of RMP protections.
    Your proposed rulemaking would diminish requirements for 
prevention, consideration of safer alternatives, third-party 
audits, transparency, coordination with first responders, and 
more. These common-sense requirements should not be removed. In 
the past month, the Houston area has seen two large fires at 
RMP facilities, the ITC Deer Park facility and the KMCO 
facility in Crosby. Both fires created significant disruptions 
with shelter-in-place requirements and large plumes of black, 
toxic smoke.
    Mr. Wheeler, are you aware that the Deer Park facility was 
cited for violations of the RMP program in 2015 and some of 
those violations stemmed from a lack of proper prevention?
    Mr. Wheeler. Yes. And we have been working with the 
community involved. I do want to point out on the RMP program, 
last year we had the largest-ever settlement in the history of 
enforcing of the RMP program, $150 million settlement.
    Ms. Clarke. Well, I think we should be doing more to 
prevent disasters, right. That is what that whole protocol is 
about. Mr. Wheeler, will you commit to strengthening the 
prevention requirements of the RMP program rather than 
weakening them?
     Mr. Wheeler. I don't believe we are weakening them, 
Congresswoman.
    Ms. Clarke. So you don't commit to strengthening them?
    Mr. Wheeler. We are enforcing them more vigorously----
    Ms. Clarke. You are enforcing them. I am asking whether you 
would strengthen them.
    Mr. Wheeler. We are in the middle of a rulemaking process 
to reconsider certain provisions of the RMP----
    Ms. Clarke. All right. Let me go on to my next question 
because clearly you are not interested in strengthening them. 
Are you aware that the facility also has extensive violations 
of the Clean Air Act and Clean Water Act? That is the Deer Park 
facility.
    Mr. Wheeler. Yes, I am aware of that.
    Ms. Clarke. OK. I don't think a facility with that record 
of compliance should be trusted to protect surrounding 
communities. Will you commit to finalizing an RMP rule that 
preserves the third-party audit requirements?
    Mr. Wheeler. Yes.
    Ms. Clarke. Thank you. I just think weakening a program 
that protects 9.1 million people in New York, because the 
regulated industry asks you to, is not your job. As an 
Administrator of the Environmental Protection Agency, industry 
may have been there for you before, but you work for the people 
now and you should be looking out for all of us. I hope that 
you will reconsider the strengthening of the protections of the 
RMP program.
    With that, Mr. Chairman, I yield back.
    Mr. Tonko. The gentlelady yields back. The Chair now 
recognizes the gentleman from the State of Georgia, Mr. Carter, 
for 5 minutes, please.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Wheeler, thank you for being here. It is good to see 
you. We appreciate you taking time to come and talk to us. I 
wanted to talk very quickly about the district I represent is 
the 1st congressional district of Georgia. And we have two 
major seaports, as you know, the Port of Savannah, the number 
two container port on the Eastern Seaboard, the Port of 
Brunswick which is the number two roll-on/roll-off port in the 
country. Both of these are extremely important, extremely 
important to the economic well-being of the Southeast United 
States. The Port of Savannah and Brunswick are two of the major 
economic engines of the Southeast and it is very important that 
we keep those going.
    One of the things that I have spoken to you about in the 
past has been the bar pilots that are so very important in 
escorting the ships in and out of the harbor and the 
requirement now that they utilize the Tier 4 engines. Now we 
have had EPA personnel go out to the manufacturers that make 
the boats that they are required, that harbor pilots are 
required to have, and meet with them and they have said, 
``Look, we cannot meet these requirements,'' and EPA has 
agreed. And it is my understanding that through the rulemaking 
process that you are going to correct this.
    Can you tell me where we are at right now in the rulemaking 
process dealing with the Tier 4 engines?
    Mr. Wheeler. Yes, we have submitted the rule to OMB and 
that should be going out for public comment shortly.
    Mr. Carter. Can you give me an idea about how long the OMB 
process may take, because obviously this is very urgent on our 
part?
    Mr. Wheeler. I am not sure if it is a 30- or 60-day review 
by OMB, but I will check into that and get back to you, sir.
    Mr. Carter. OK. Well, I appreciate that. This is a step in 
the right direction, changing the rules, but time is of the 
essence. I just hope that everyone understands that because it 
just simply cannot be done. And the Tier 4 engines, I might 
add, is impacting other areas. We have a strong ag presence in 
our district as well, and now the farmers are telling us that 
they actually cannot get the Tier 4 engines onto the tractors 
and use the type of wheels that they need to use in their 
process. So I hope that this will be something you will be 
looking at as well.
    Mr. Wheeler. Yes, sir.
    Mr. Carter. Thank you. If we could kind of shift gears now 
about the Superfund sites. In my district and particularly in 
one area, we have a county, Glynn County, that has four 
Superfund sites and it is of major concern. In fact, last year 
you will remember that I hand-delivered a letter to you about 
one of them that the Department of Justice and EPA have ruled 
on, the Terry Creek site in Brunswick, Georgia. It is the 
Hercules site that the Hercules plant used to be on that. And 
last September I gave you a letter as I say, asking you to work 
together with the Department of Justice to address some of the 
concerns that the local community had about the consent decree 
and the remediation plans.
    Do you know or can you tell me what actions have been taken 
on the consent decree to alleviate some of the concerns that 
the community leaders have?
    Mr. Wheeler. I believe their concerns have been addressed. 
And I am also told that that consent decree should be finalized 
in the next month or so, but I will go back and make sure that 
their concerns have been addressed.
    Mr. Carter. Do you work with the Department of Justice on 
this? Whose jurisdiction, who is going to be making the final 
decision?
    Mr. Wheeler. It is a collaborative process between EPA and 
the Department of Justice on working on the consent decrees for 
Superfund sites.
    Mr. Carter. OK. I am very concerned also, because two of 
these sites and in Brunswick and that area, one of them has had 
this designation of construction complete and that designation 
has been on there for 20 years. Is that correct? Am I wrong on 
that?
    Mr. Wheeler. It might be. Part of my frustration and why we 
are putting such an emphasis on getting these Superfund sites 
cleaned up is because when they are on a national priority list 
for decades, that means it is not a priority. As I mentioned in 
my opening statement, we delisted 22 sites last year, the most 
since 2005. We have made it a priority at the Agency to move 
these sites, to get them cleaned up and get them cleaned up 
quickly. Again, if something is on the national priority list 
for decades, then by definition it is not a priority.
    Mr. Carter. This is, you know, of major concern to this 
community. I have met with the community leaders and, you know, 
they have big plans for some of these areas, but they can't. 
For instance, they are looking to build a school. We can't 
build a school on a site like this unless we know it has been 
remediated, unless we know it is safe. I mean that is just 
irresponsible.
    So I hope that I can get your commitment that you will pay 
particular attention to this. I recognize that it would be 
unfair to ask you to speak on this specific site that you are 
probably not prepared for that, but at the same time, I hope 
that you will take that back and perhaps have your staff get in 
touch with me.
    Mr. Wheeler. Happy to do that, sir. Thank you.
    Mr. Carter. OK. Finally, I want to talk about biobutanol. 
That is something that is very important to us on the Coast 
because as you know the impact that that particular fuel has on 
marine engines is less severe than some of the other fuels that 
are out there. And I know that the Agency has been grappling 
with proposal on year-around E15, but what consumer protections 
can we expect you to see for boaters and other small engine 
operators to prevent misfuelling and educate them on 
alternatives like biobutanol?
    Mr. Wheeler. Well, we do work with the gasoline stations, 
the oil companies to make sure that it is properly labeled and 
to try to make sure through education efforts, and to make sure 
that when you have boats that are labeled correctly, and that 
people are not putting the wrong fuel into their vehicles or 
boats.
    Mr. Carter. OK. All right, I have got just about a minute 
left. Just to recap, Mr. Wheeler, Tier 4 engines, Superfund 
sites, biobutanol, OK. And I am going to yield the remainder of 
my time to Ranking Member Shimkus.
    Mr. Shimkus. I thank my colleague. And I will just be 
brief. I was going to raise a point of order, but since I am 
just going to get this last minute, Mr. Chairman, and I know 
there is the art of legal language. I just want us to be 
careful to use that to make accusations that we have no proven 
connection to, no stories, no legal actions.
    Administrator Wheeler has served 22 of his 30 years in the 
public service, in the EPA Chemical Office for 5 years, serving 
in the EPW and now it is on the Senate side so we could attack 
you for that. But 15 years, and then in private practice for 8 
and then here for 2 years. So I would caution my colleagues and 
I will be the first when there are real things to point to it 
is a fair game, but innuendos I would be careful of. And thank 
you, Mr. Chairman.
    Mr. Tonko. You are welcome.
    Let's now move to the gentleman from Maryland, 
Representative Sarbanes. You have 5 minutes, please.
    Mr. Sarbanes. Thank you, Mr. Chairman, and thanks for the 
opportunity to waive on to the committee today.
    Administrator Wheeler, I wanted to talk about the 
Chesapeake Bay. You won't be surprised to hear that, being a 
Representative from Maryland and having been a champion of the 
Bay, really, since I was a little kid crabbing on the Nanticoke 
River on the Eastern Shore, but having that opportunity 
obviously since I came to Congress. And I am extremely 
distressed at this continued run that the administration is 
taking at the funding for the Chesapeake Bay in many different 
respects. I will focus primarily today on the Chesapeake Bay 
Program. As you know, the President in his budget 2 years ago 
proposed to completely zero-out funding for the Chesapeake Bay 
Program.
    Last year, he proposed a 90 percent cut to the funding for 
the Chesapeake Bay Program at EPA and has done the same thing 
with the budget proposal this year. And obviously that would 
have a huge impact on our restoration efforts for the 
Chesapeake Bay. There are nearly 50 Members of Congress here 
whose districts intersect with the Chesapeake Bay watershed. 
There are 17 million residents of the Bay watershed, 64,000 
square miles within the watershed. And the resource that that 
represents, not just as a national and a natural treasure, but 
in terms of the economic engine that it represents for Maryland 
and for the region, really cannot be overstated.
    So the proposal to come again with this kind of cut, and I 
will as you know over the last 2 years in response to that 
there has been a bipartisan pushback on the part of Members of 
Congress, Republicans and Democrats, who understand how 
valuable the program is to all of the States involved, but 
really to our country overall.
    So I wanted to ask you to comment on these cuts. I know 
that there were similar proposed draconian cuts made with 
respect to funding of the Great Lakes restoration efforts. And 
since the budget has come down, you and the President have now 
kind of reversed the position on the Great Lakes and are 
indicating that the funding will be restored as you are 
interested in having Congress restore that funding, but we 
haven't had the same kind of declaration or commitment made 
with respect to the Chesapeake Bay.
    So I would ask you to comment on that, please.
    Mr. Wheeler. Certainly, Congressman. And first of all, I 
live in a Chesapeake Resource Protection Area. I am fully 
committed to the Bay and making sure that the health of the Bay 
continues to improve. The Geographic Program areas is just one 
area of funding that we use to help restore the Chesapeake Bay. 
We have other Clean Water Act programs as well, the source 
water protection programs authorized under the Safe Drinking 
Water Act to protect the watershed and including the National 
Pollutant Discharge Elimination System program, water quality 
trading and also our work involving the harmful algae blooms.
    Also last month, I signed a WIFIA loan for the City of 
Baltimore for $202 million that will go a long ways to helping 
to clean up the Bay. So we have a number of different programs 
aside from the geographic specific programs that we can use, 
and we do use, to not only help the Chesapeake Bay, but the 
Great Lakes, Puget Sound, a number of watersheds all around the 
country. We are not limited to our programs to the geographic 
programs. We have a lot of other tools at our disposal.
    Mr. Sarbanes. Well, I certainly appreciate you having those 
other tools and maintaining commitment to them is really 
important. But the Bay program that the EPA funds and supports 
is really critical because it is a leveraging program and the 
amount of expertise that has been assembled in the program with 
respect to restoring the Chesapeake is tremendous over the last 
few years. You are going to, I think, encounter the same kind 
of response you saw from Congress over the last couple of years 
with respect to that proposed cut.
    And I would just encourage you to do the kind of 
reevaluation that we have seen with respect to the Great Lakes 
restoration efforts as you are looking at the Chesapeake Bay, 
because I would think that the administration would want to be 
on the correct side of this issue in terms of maintaining a 
critical momentum with respect to the restoration that has 
happened and largely because of that leveraging resource that 
has been represented by the Chesapeake Bay Program.
    So we urge you, we beseech you to take a position of 
restoring that funding. You can rest assured that that is the 
position that we are going to assemble here in Congress on a 
bipartisan basis. And with that, I yield back my time.
    Mr. Wheeler. We will utilize all the funds that Congress 
gives us for the Bay.
    Mr. Tonko. The gentleman yields back. The Chair now 
recognizes the gentleman from Iowa. Representative, you have 5 
minutes, please.
    Mr. Loebsack. Thank you, Mr. Chairman. Thank you for 
allowing me to waive on to this subcommittee. And I admire the 
clairvoyance of my friend, Mr. Shimkus. I am indeed going to 
ask you about the Renewable Fuel Standard, Mr. Wheeler. I am 
going to get right to my questions.
    Mr. Wheeler, have the 39 small refinery waiver requests 
that were at DOE last week been sent to you folks at EPA yet?
    Mr. Wheeler. I don't believe the formal waiver requests 
have been sent. We have received a list from the Department of 
Energy.
    Mr. Loebsack. Do you expect to grant any or all of these 
waivers going forward?
    Mr. Wheeler. We will certainly take the advice of 
Department of Energy into account. In the past we have taken 
their advice in all but one instance.
    Mr. Loebsack. Now looking forward, do you expect that you 
will have to grant any small refinery waivers for 2019, or what 
about 2020?
    Mr. Wheeler. Well, it would depend on the data each year 
and whether or not the small refineries have a hardship based 
upon the information in the data. You know, part of that is the 
price of RIN.
    Mr. Loebsack. And this has been hugely controversial as you 
know in corn country because of the waivers. What is clear to 
me, unfortunately, is that this particular EPA under your 
predecessor, hopefully that won't be the case under you, is 
committed to granting small refinery waivers, and every year 
since 2013 we have seen these waivers. But the explosion the 
last few years has been prolific. And it appears to the 
American people that if a refinery applies for a waiver, it 
basically is guaranteed to get one, unfortunately.
    Just to be perfectly clear, Mr. Administrator, when you and 
your predecessor waive over 2.6 billion gallons of biofuels and 
counting, you are harming the biofuels industry, an industry 
that as you know is an economic driver in districts like mine 
in Iowa and throughout the Midwest, throughout corn country, 
generally. The EPA has failed to do anything to reallocate the 
demand destruction.
    Your Agency has expressly refused to take comments on a 
possible reallocation on the 2019-2020 RVO. You have refused to 
acknowledge the likelihood of waivers and rulemaking when it is 
clear the refiners will continue to submit applications and you 
all will keep granting them especially under this 
administration, one that has prolifically, I have to say, 
handed out over 54 waivers to the oil industry so far.
    What is the Agency doing, if anything, to restore the 2.6 
billion gallons of lost biofuel demand?
    Mr. Wheeler. We are looking into that. But I would point 
out that when the Agency was not issuing the waivers, we were 
sued three times and we lost all three cases.
    So we----
    Mr. Loebsack. Well, is there any statutory prohibition on 
reallocating the waive volumes?
    Mr. Wheeler. After we have set the RVOs for a year we can't 
go back and modify the RVO numbers, and the waiver requests 
come in after the RVO numbers are set.
    Mr. Loebsack. Would it be easier to reallocate the gallons 
if you were able to determine the so-called hardship earlier in 
the compliance year? Do you have the ability to do that?
    Mr. Wheeler. Yes, we would have the ability to do that, but 
again we don't receive the request for the waivers until after 
the RVOs are set.
    Mr. Loebsack. If you got them done earlier in the year, 
could you then potentially use the RVO to account for these 
waivers even as an estimate?
    Mr. Wheeler. It is not a factor of us getting them done 
earlier because we don't receive them from the small 
refineries.
    Mr. Loebsack. And I have just one final question, Mr. 
Wheeler, and it is a yes or no question. Do you acknowledge 
that when ethanol and biodiesel plants suffer when you grant 
small refinery exemptions that the farmers who grow the corn 
and the soybeans for ethanol and biodiesel are harmed as well?
    Mr. Wheeler. Yes, they are. But that is why we are also 
moving forward to grant the E15 year-round to provide greater 
markets for the ethanol.
    Mr. Loebsack. I certainly hope so too, and do appreciate 
that.
    Mr. Wheeler. We hope to have that finished in time for the 
summer driving season.
    Mr. Loebsack. And we are looking forward to that because I 
think the best way to deal with that issue is through 
regulation obviously.
    Mr. Chairman, this EPA I believe has been egregiously 
undermining the biofuels industry and hurting farmers across 
the country. This is what I hear from farmers every time I talk 
to them, quite honestly. If these actions continue, they will 
do reparable harm to the economy in my State and other States 
especially in corn and soybean country. I am going to continue 
to exert my oversight role as I have today, and certainly I 
hope that this administration looks more favorably on our corn 
growers, our soybean growers, and much less favorably on big 
oil going forward.
    So thank you, and I do yield back. Thank you.
    Mr. Tonko. Representative Loebsack yields back. The Chair 
now recognizes the gentleman from Arizona, Representative 
O'Halleran, for 5 minutes, please.
    Mr. O'Halleran. Thank you, Mr. Chairman, and thank you for 
allowing me to waiver in.
    I want to discuss, Mr. Wheeler, my concerns about the pace 
of cleanup of the over 520 uranium mine sites on the Navajo 
Nation reservation and the available EPA resources to resolve 
this crisis. This crisis was created by the Federal Government. 
The Navajo Nation had nothing to do with this process. You will 
see a map on the screen identifying the sites and most of them 
are nearby waterways or washes.
    While these mines are no longer operating, the lingering 
high levels of radiation as admitted to by the EPA, are still 
causing a devastating effect to the health of Navajo people in 
my district. Remediation of these sites to reduce toxic 
exposures and ensure access to safe drinking water is moving 
too slowly.
    [Slide.]
    Mr. O'Halleran. In fact, the monitoring systems are not 
even in place right now that is a USGS issue, in part, because 
too few resources such as staff and funding are being devoted 
to completing these difficult works. I cannot see how proposals 
for deep cuts in funding and staffing can maintain progress, 
let alone increase its pace. The Navajo people already have 
waited decades for help in cleaning up this dangerous pollution 
and they deserve a resolution.
    Administrator Wheeler, how does the EPA justify its 15 
percent proposed cut, around $115 million, to the Superfund 
program for hazardous site cleanups for fiscal year 2020?
    Mr. Wheeler. Congressman, we are trying to balance a number 
of competing interests within the EPA budget to try to reduce 
the overall Federal expenditures, but one thing we are doing on 
the Superfund program is going after the responsible parties at 
a higher level. We had more recoveries last year from PRPs than 
previous years which will hopefully free up more Superfund 
dollars to address other sites such as the Navajo Nation.
    Mr. O'Halleran. In this case I believe that waiting for 
that time is costing people's lives, and children's quality of 
life, and their potential for life, and death issues. But I 
also know that there is Superfund money there and you haven't 
been using it appropriately. After congressional pressure years 
ago, it seemed like progress was being made by the EPA in the 
creation of five-year plans for uranium mine cleanups which EPA 
released in '08 and 2014.
    Did the EPA meet the goals it set for itself in this latest 
five-year plan which recently ended in 2018, and was enough 
budgeted to fulfill these goals?
    Mr. Wheeler. If you don't mind, sir, I would like to 
respond for the record on that question.
    Mr. O'Halleran. OK. Further, the EPA Inspector General's 
Office reported in August of last year that EPA had not 
finished developing in the prioritization methodology for the 
54 sites included in the settlements as of June 2018.
    Mr. Chairman, I would like to submit for the record the 
Inspector General's report on this issue, Report Number 
18P0233.
    Mr. Tonko. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. O'Halleran. Also in this report, EPA Regions 6 and 9 
noted that they intend to follow through with their site 
cleanup contaminants and stay on schedule, but that the task 
completion dates are subject to available resources staffing 
and that both offices were operating with too few employees. In 
fact, both 5-year plan there was no money requested from the 
EPA in addition to your regular budget and, frankly, the 10-
year plan that is coming up does not request it either.
    Frankly, I am disheartened that the funds currently 
available for mine cleanup, so few sites have been cleaned to 
date even where funds are available to do the work as with the 
settlement fund for the Tronox mines. It seems there are still 
too few resources at EPA to move this work forward and many 
other projects that have been discussed here today.
    I do appreciate the EPA's process for site evaluation and 
tribal consultation, but the sense of urgency towards this 
crisis appears to be lacking, in my view. In fact, I think it 
is disrespectful to the people that are impacted by this and 
the responsibility of Federal Government is not being made by 
this administration or prior.
    Mr. Chairman, with this information presented I believe 
that we, as a committee, ought to request the EPA come in for a 
thorough follow-up briefing on this matter.
    Mr. Wheeler, will you commit to an Agency briefing before 
this committee on the status of the uranium mine cleanups?
    Mr. Wheeler. Yes, I would.
    Mr. O'Halleran. I realize this is a complex and difficult 
task, but we should be able to make much better progress than 
we have been. Almost 80 years is way too long to have the 
Navajo Nation, the water resources of the Navajo Nation, and 
the Colorado River potentially impacted because of our 
negligence. And, Mr. Chairman, I yield back.
    Mr. Tonko. The gentleman yields back.
    Administrator Wheeler, on the fuel economy proposal I want 
to note that EPA's internal analysis corrected many flaws in 
the modeling underlying the proposed rule. And after doing so, 
EPA career staff concluded that instead of saving lives, the 
proposed rule would actually increase fatalities.
    And also again we thank you for appearing before the 
subcommittee today. And I know that you have made some 
comments----
    Mr. Shimkus. Mr. Chairman?
    Mr. Tonko. Yes, sir.
    Mr. Shimkus. Can I see the cite for that analysis that you 
just read?
    Mr. Tonko. It is in the administrative record.
    Mr. Wheeler. I am not familiar with that, but I would 
like----
    Mr. Shimkus. Thank you.
    Mr. Wheeler [continuing]. To respond for the record on 
that. I am not familiar with that information.
    Mr. Tonko. So again we thank you for appearing before the 
subcommittee today. I know you made some commitments to respond 
to Members' requests today and I hope we can receive those 
responses along with answers to questions for the record in a 
reasonable amount of time, including confirmation that the TSCA 
risk evaluation was sent to the National Academies of Science.
    I would also mention a letter--I would be remiss if I 
didn't mention this one that we sent a letter to EPA with 
Representatives Dingell, Lujan, and Welch back in December on 
PFAS chemicals and the TSCA program. I hope we can receive that 
information in the near future because this committee intends 
to work on PFAS this year. The 70 parts per trillion health 
advisory level is not a standard and it is not enforceable.
    So I hope EPA will provide us with the assistance necessary 
for us to move forward with all available information. And in 
regard to that December letter, might I be more specific and 
direct since you have had that for months, I would ask that we 
receive a detailed response within 7 working days.
    Mr. Wheeler. We will give you a response, yes.
    Mr. Tonko. Within 7 working days?
    Mr. Wheeler. I will have to check with the staff on what--
--
    Mr. Shimkus. Mr. Chairman, are we going into a second 
round? Is that where we are headed?
    Mr. Tonko. No. I just wanted a response to our letter of 
December.
    Mr. Shimkus. Thank you.
    Mr. Tonko. And I think we are owed a response and I would 
appreciate a 7-day time frame, working day time frame by which 
to respond.
    Mr. Wheeler. I hear you and I need to check on the status 
of that response. We have responded. I believe we have received 
eight committee letters. We have responded to seven of them.
    Mr. Tonko. This is a December letter, Mr. Administrator, so 
I don't think we are being unfair, 7 working days?
    Mr. Wheeler. I will have to see where we are on the 
response. We will get it to you----
    Mr. Tonko. Can you give us an update in 7 working days?
    Mr. Wheeler. Yes, sir. We----
    Mr. Shimkus. Mr. Chairman, are we going to go to a second 
round, because----
    Mr. Tonko. We are not going to a second round. I just want 
to get a commitment to get a response to a letter from 
December.
    Mr. Shimkus. Well, it is five and five, so.
    Mr. Tonko. OK. We have a number of documents that we ask to 
be for unanimous consent to enter into the record. They include 
a fax sheet from the Colorado Oil and Gas Association on the 
State's air quality advancements; an opinion letter submitted 
to the Gainesville Sun titled, ``Attacks on science are a 
threat to our water''; a February 2019 report by the GAO 
entitled, ``Superfund: EPA Should Improve the Reliability of 
Data on National Priorities List Sites Affecting Indian 
Tribes''; a letter from various public health groups entitled, 
``Climate Change is a Health Emergency,'' a declaration on 
climate change and health; an EPA Inspector General report on 
uranium mine sites on Navajo lands from August 2018; and 
finally, a map from the EPA Inspector General report. Again, 
request unanimous consent to enter the following into the 
record.
    Mr. Shimkus. Without objection, Mr. Chairman.
    Mr. Tonko. So moved.
    [The information appears at the conclusion of the hearing.]
    Mr. Tonko. And so with that, again we thank you, 
Administrator Wheeler. I remind Members that pursuant to 
committee rules they have 10 business days to submit additional 
questions for the record to be answered by our witness.
    Mr. Wheeler, I ask you to respond promptly to any such 
questions that you may receive. At this time, the subcommittee 
is adjourned.
    [Whereupon, at 12:24 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
 
                                 <all>
</pre></body></html>
